<html>
<title> - REALIZING THE BENEFITS OF RURAL BROADBAND: CHALLENGES AND SOLUTIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  REALIZING THE BENEFITS OF RURAL BROADBAND: CHALLENGES AND SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2018

                               __________

                           Serial No. 115-150
                           
                           
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov                       
                        
                     
                                 _________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-384                        WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0364736c43607670776b666f732d606c6e2d">[email&#160;protected]</a>                                      
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, prepared statement..............................     4
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
    Prepared statement...........................................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
    Prepared statement...........................................     9
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    10
    Prepared statement...........................................    11

                               Witnesses

Tom Stroup, President, Satellite Industry Association............    13
    Prepared statement...........................................    15
    Answers to submitted questions...............................   170
Justine Forde, Senior Director of Government Relations, Midco....    24
    Prepared statement...........................................    26
    Answers to submitted questions...............................   174
Claude Aiken, President and CEO, Wireless Internet Service 
  Providers Association..........................................    37
    Prepared statement...........................................    39
    Answers to submitted questions...............................   178
John C. May, President, Ag Solutions, and Chief Information 
  Officer, John Deere & Company..................................    50
    Prepared statement...........................................    52
    Answers to submitted questions...............................   181
Jenni Word, Associate Administrator and Chief Nursing Officer, 
  Wallowa Memorial Hospital......................................    60
    Prepared statement...........................................    62
    Answers to submitted questions...............................   185
Suzanne Coker Craig, a Former Commissioner of the Town of 
  Pinetops and Managing Partner, Curiositees of Pinetops.........    70
    Prepared statement...........................................    73
    Answers to submitted questions...............................   187

                           Submitted Material

Statement of coalition including the African-American Mayors 
  Association, the American Library Association, the National 
  Black Chamber of Commerce, and the Taxpayer Protection 
  Alliance, submitted by Mr. Lance...............................   109
Statement of the Chariton Valley Electric Cooperative, Inc., 
  submitted by Mr. Loebsack......................................   111
Statement of NTCA--The Rural Broadband Association, submitted by 
  Mr. Olson......................................................   114
Statement of the Wireless Infrastructure Association, submitted 
  by Mr. Olson...................................................   115
Statement of the Association of Missouri Electric Cooperatives, 
  submitted by Mr. Long..........................................   116
Study by the Federal Communications Commission, submitted by Mr. 
  Doyle..........................................................   118
Statement of the ITTA, submitted by Mrs. Blackburn...............   126
Statement of the Wireless Industry Association, submitted by Mrs. 
  Blackburn......................................................   127
Statement of the American Hospital Association, submitted by Mrs. 
  Blackburn......................................................   128
Statement of USTelecom, submitted by Mrs, Blackburn..............   133
Statement of NTCA--The Rural Broadband Association, submitted by 
  Mrs. Blackburn.................................................   134
Statement of ACT, the App Association, submitted by Mrs. 
  Blackburn......................................................   135
Statement of the Competitive Carriers Association, submitted by 
  Mrs. Blackburn.................................................   137
Statement of the Advanced Communications Law & Policy Institute, 
  submitted by Mrs. Blackburn....................................   139
Statement of the CTIA, submitted by Mrs. Blackburn...............   162
Blog post from NCTA, July 17, 2018, submitted by Mrs. Blackburn..   163
Letter of February 21, 2018, from Rural Broadband Caucus members 
  to House appropriators, submitted by Mrs. Blackburn............   165
Chairman Walden's slides, submitted by Mrs. Blackburn............   167

 
  REALIZING THE BENEFITS OF RURAL BROADBAND: CHALLENGES AND SOLUTIONS

                              ----------                              


                         TUESDAY, JULY 17, 2018

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Latta, Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Long, 
Flores, Brooks, Collins, Cramer, Walters, Costello, Walden (ex 
officio), Doyle, Welch, Loebsack, Ruiz, Dingell, Eshoo, 
Butterfield, Matsui, McNerney, and Pallone (ex officio).
    Staff present: Jon Adame, Policy Coordinator, 
Communications and Technology; Kristine Fargotstein, Detailee, 
Communications and Technology; Sean Farrell, Professional Staff 
Member, Communications and Technology; Margaret Tucker Fogarty, 
Staff Assistant; Theresa Gambo, Human Resources/Office 
Administrator; Elena Hernandez, Press Secretary; Paul Jackson, 
Professional Staff, Digital Commerce and Consumer Protection; 
Tim Kurth, Deputy Chief Counsel, Communications and Technology; 
Lauren McCarty, Counsel, Communications and Technology; Brannon 
Rains, Staff Assistant; Austin Stonebraker, Press Assistant; 
Evan Viau, Legislative Clerk, Communications and Technology; 
Michelle Ash, Minority Chief Counsel, Digital Commerce and 
Consumer Protection; Jeff Carroll, Minority Staff Director; 
Jennifer Epperson, Minority FCC Detailee; Alex Hoehn-Saric, 
Minority Chief Counsel, Communications and Technology; Jerry 
Leverich, Minority Counsel; Jourdan Lewis, Minority Staff 
Assistant; Dan Miller, Minority Policy Analyst; and C.J. Young, 
Minority Press Secretary.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn [presiding]. The Subcommittee on 
Communications and Technology will now come to order, and the 
Chair recognizes herself for 5 minutes for an opening 
statement.
    And I want to welcome you to today's subcommittee hearing 
on rural broadband challenges and solutions. Extending the 
reach of broadband in rural Tennessee and across America is 
critical to ensure that everyone can participate in the digital 
economy. While the percentage of rural Tennesseans still 
lacking access to high-speed internet has decreased from 34 
percent to 23 percent, we have to continue to push. You can't 
have a 21st century economy without a 21st century internet.
    Since passage of the 1996 Telecom Act, the private sector 
has invested roughly $1.6 trillion in their networks using 
different technologies. Understanding different technologies is 
key because broadband is more than just fiber. Moreover, we 
should acknowledge private investment in rural deployment and 
ensure that government-based solutions complement private 
investment instead of competing with it. For example, I am 
pleased to have the Satellite Industry Association testifying, 
so we can learn about the strides they are making to deploy 
modern satellites capable of delivering broadband internet 
anywhere in the country.
    Almost 6 months ago, I chaired a hearing on closing the 
digital divide. These hearings are useful, but, as chairman, I 
like to focus on results. Today's hearing allows us to check 
our progress, finding solutions and getting work done.
    I am proud to report that members of this subcommittee have 
worked together and accomplished quite a bit when it comes to 
expanding broadband access in rural America. In March, Congress 
passed RAY BAUM's Act, the most significant rural broadband 
legislation to become law in the last 6 years. The bill is 
named in honor of the E&C Committee Staff Director Ray Baum, 
who passed away earlier this year. Ray was a champion for rural 
America, and naming this bill for him is a fitting tribute.
    RAY BAUM's Act incorporated several legislative proposals 
we examined at our hearing in January. I will allow 
subcommittee members to discuss the legislative solutions, but 
I would like to highlight a couple that positively impact the 
people of Tennessee and Americans everywhere.
    Ms. Eshoo and Mr. McKinley took the reins on the broadband 
conduits, the idea that the Department of Transportation should 
facilitate broadband infrastructure on highway projects that 
use Federal dollars. I am pleased that we could work with Ms. 
Eshoo, who had this great idea, common sense, and we finally 
got it done.
    Mr. Kinzinger and Mr. Loebsack worked together to require 
the FCC to study the potential of using spectrum more 
efficiently for rural areas.
    Lastly, our full committee chairman, Greg Walden, took on 
the difficult issue of ensuring the solvency of the Broadcast 
Relocation Fund. Wireless broadband providers spent over $19.8 
billion at auction for TV spectrum. Ensuring the solvency of 
the Relocation Fund is crucial to getting this spectrum to use 
for broadband, especially in rural areas.
    After passage of RAY BAUM's Act, the subcommittee passed 
two more rural broadband bills, the Precision Agriculture 
Connectivity Act from Mr. Latta and Mr. Loebsack, the ACCESS 
BROADBAND Act from Mr. Tonko and Mr. Lance. These bills were 
reported out of full committee last week. All of this shows 
that Congress can, in fact, roll up our sleeves and get things 
done.
    Rural broadband remains a challenge and there are still 
unserved areas that need to be connected. With limited federal 
dollars to go around, we simply cannot afford to allow 
overbuilding to take place while so many areas are left 
completely unserved. We need to encourage states to find 
solutions that best suit their needs. We will not stop working, 
and I am proud to lead this subcommittee in working with the 
President to find good bipartisan solutions.
    I yield the balance of my time to Mr. Lance.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome to today's subcommittee hearing on rural broadband 
challenges and solutions. Extending the reach of broadband in 
rural Tennessee, and across America, is critical to ensure 
everyone can participate in the digital economy.
    While the percentage of rural Tennesseans still lacking 
access to high speed internet has decreased from 34% to 23%, we 
must continue to push. You can't have a 21st century economy 
without a 21st century internet.
    Since passage of the 1996 Telecommunications Act, the 
private sector has invested roughly $1.6 trillion in their 
networks using different technologies. Understanding different 
technologies is key because broadband is more than just fiber. 
Moreover, we should acknowledge private investment in rural 
deployment, and ensure that government-based solutions 
complement private investment instead of competing with it.
    For example, I'm pleased we have the Satellite Industry 
Association testifying so we can learn about the strides 
they're making to deploy modern satellites capable of 
delivering broadband internet anywhere in the country.
    Almost 6 months ago, I chaired a hearing on closing the 
digital divide.
    Hearings are useful, but as Chairman, I like to focus on 
bipartisan results. Today's hearing allows us to check our 
progress finding solutions and getting work done.
    I'm proud to report the members of this Subcommittee have 
worked together and have accomplished a lot to expand broadband 
access in rural America.
    In March, Congress passed RAY BAUM'S Act--the most 
significant rural broadband legislation to become law in the 
last 6 years. The bill was named in honor of the Energy and 
Commerce Committee's staff director, Ray Baum, who passed away 
earlier this year. Ray was a champion for rural America, and 
naming a rural broadband bill for him is a fitting tribute to 
his career of public service.
    RAY BAUM's Act incorporated several legislative proposals 
we examined at our hearing in January.
    I'll let our subcommittee members discuss their legislative 
solutions, but I would like to highlight a couple that 
positively impact the people of Tennessee, and Americans 
everywhere.
    Ms. Eshoo and Mr. McKinley took the reins on broadband 
conduits--the idea that the Department of Transportation should 
facilitate broadband infrastructure on highway projects that 
use federal dollars. I'm very glad we could work with Ms. Eshoo 
to finally get it done.
    Mr. Kinzinger and Mr. Loebsack worked together to require 
the Federal Communications Commission to study the potential of 
using spectrum more efficiently for the benefit of rural areas.
    Lastly, our full committee Chairman, Greg Walden, took on 
the difficult issue of ensuring the solvency of the Broadcaster 
Relocation Fund. Wireless broadband providers spent over $19.8 
billion at auction for TV spectrum. Ensuring the solvency of 
the Relocation Fund is crucial to putting this spectrum to use 
for broadband, especially in rural areas.
    After passage of RAY BAUM'S Act, the subcommittee passed 
two more rural broadband bills:
    <bullet> The Precision Agriculture Connectivity Act from 
Mr. Latta and Mr. Loebsack; and
    <bullet> The ACCESS BROADBAND Act from Mr. Tonko and Mr. 
Lance.
    These bills were reported out of full committee just last 
week.
    All of this shows that Congress can--in fact--roll up its 
sleeves to get things done. But we cannot rest on our laurels.
    Rural broadband remains a challenge, and there are still 
unserved areas that need to be connected.
    With limited federal dollars to go around, we simply cannot 
afford to allow overbuilding to take place while so many areas 
are left completely unserved.
    We need to encourage states to find solutions that best 
suit their needs.
    We will not stop working, and I'm proud to lead this 
subcommittee in working with the President to find bipartisan 
solutions.

    Mr. Lance. Thank you, Chairman Blackburn.
    I have introduced the AIRWAVES Act with Ranking Member 
Doyle which, among other things, would help spur rural 
broadband deployment by dedicating 10 percent of spectrum 
auction proceeds under the bill to rural broadband. Had this 
rural dividend been in place during the previous two spectrum 
auctions, over $6 billion would have been raised for rural 
buildout. I think that it is incredibly important that rural 
America be treated the same way as the rest of America.
    It is also important that we recognize that any federal 
funds for broadband deployment will be finite. I have worked 
hard to pursue policies to ensure coordination between various 
agencies.
    Mr. Chairman, I ask unanimous consent to introduce a 
coalition letter of support for the AIRWAVES Act, and it 
includes the African-American Mayors Association, the American 
Library Association, the National Black Chamber of Commerce, 
and the Taxpayer Protection Alliance.
    Mrs. Blackburn. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Lance. And I yield back the balance of my time.
    [The prepared statement of Mr. Lance follows:]

                Prepared statement of Hon. Leonard Lance

    Thank you, Chairman Blackburn, and thank you to our 
distinguished panel members for appearing before us today.
    As broadband access becomes more and more important to 
success in the 21st century economy, closing the digital divide 
is an increasingly important issue facing our Nation.
    For my part, I have introduced the AIRWAVES Act with 
Ranking Member Doyle, which, among other things, would help 
spur rural broadband deployment by dedicating ten percent of 
spectrum auction proceeds under the bill to rural broadband. 
Had this ``rural dividend'' been in place during the previous 
two spectrum auctions, over $6 billion would have been raised 
for rural buildout.
    It is also important that we recognize that any Federal 
funds for broadband deployment will be finite. I have worked 
hard to pursue policies to ensure coordination between various 
agencies involved in broadband deployment, encourage 
concentration on unserved areas and generally avoiding over 
building of areas already served by a broadband provider.
    I ask unanimous consent to introduce a coalition letter of 
support for the AIRWAVES Act into the record and yield back the 
balance of my time

    Mrs. Blackburn. The gentleman yields back.
    At this time, I recognize Mr. Doyle for 5 minutes.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair.
    Before I get started, I want to express my deepest 
condolences to Robin Colwell, the majority's chief counsel, on 
the passing of her husband, Bill. I know Robin and her family 
are grieving their loss, but our thoughts and prayers are with 
her and her family.
    Madam Chair, thank you for holding this hearing.
    We live in a divided nation when it comes to broadband 
access. All too often, people living in urban areas are the 
digital haves; whereas, those living in rural areas are being 
left behind with few or no choices, higher prices, and lower 
speeds.
    As I and many of our colleagues have said in the past, if 
we are going to bring more broadband to rural America, our 
government needs to make a sustained investment in building out 
more infrastructure. That is why I am proud to support Ranking 
Member Pallone's LIFT America Act, which would dedicate $40 
billion to building out broadband infrastructure in the 
unserved and underserved parts of the country. We also need to 
give communities like Pinetops the freedom and flexibility to 
provision their own service. That is why I am proud to continue 
to support Ms. Eshoo's Community Broadband Act. Ms. Coker 
Craig, reading your testimony, reiterates exactly what this is 
such an important option for rural communities.
    I am also proud to have introduced the AIRWAVES Act with 
Mr. Lance. This bill directs the FCC to conduct a number of 
spectrum auctions as well as to make significant amounts of new 
unlicensed spectrum available. The bill would set aside a 
portion of the revenue from those auctions for the deployment 
of new wireless broadband infrastructure in unserved and 
underserved parts of rural America.
    Mr. Aiken discusses in his testimony a number of the bands 
in the bill which would be ideal for buildout of broadband in 
rural areas, specifically the Citizens Broadband Radio Service, 
or CBRS, and the lower C-band. It is important to keep in mind 
that these bands could be structured in a way that would 
enhance rural broadband deployment, but they don't have to be. 
The Commission is currently considering changes to both these 
bands.
    The CBRS band was envisioned as a model for an innovative 
new spectrum licensing system that would cover smaller areas 
than traditional cellular licenses. This licensing model was 
supported by a broad range of industries, including rural 
broadband providers who see tremendous potential in being able 
to access smaller, more affordable blocks of license spectrum. 
But the Commission is considering changes to this band that 
would drastically increase license sizes, crowding out smaller 
players, so that only the largest wireless providers could bid 
on these licenses.
    The Commission also opened up a proceeding on the lower C-
band. Several satellite companies that operate in this band 
have proposed making a portion of the band available for mobile 
broadband, which is great, but I agree with Mr. Aiken that this 
band has a lot more potential. The rest of the band could be 
shared between satellite operators and broadband providers 
using fixed wireless service. This proposal has the potential 
to greatly expand broadband deployment in rural parts of the 
country.
    In both of these bands, the Commission has before it two 
roads. They can work to make as much spectrum available for 
mobile broadband services. At the last hearing we had on that 
topic, every witness acknowledged 5G would not solve rural 
urban broadband divide. Or the FCC can adopt spectrum policies 
that bring broadband to all Americans. I think it is important 
for members on this subcommittee to realize that these are the 
decisions that the Commission is making right now that could 
affect the future of broadband in rural communities.
    With that, Madam Chair, I want to yield the remainder of my 
time to Mr. Butterfield.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    Before I get started, I want to express my deepest 
condolences to Robin Colwell, the majority's chief counsel, on 
the passing of her husband Bill. I know Robin and her family 
are grieving their loss. My thoughts and prayers are with her 
and her family.
    Thank you, Madam Chairman, for holding this hearing, and 
thank you to the witnesses for appearing before us today.
    We live in a divided nation when it comes to broadband 
access. All too often people living in urban areas are the 
digital have's, where as those living in rural areas are being 
left behind with few or no choices, higher prices, and lower 
speeds.
    As I and many of colleagues have said in the past, if we 
are going to bring more broadband to rural America, our 
government needs to make a sustained investment in building out 
more infrastructure.
    That's why I am proud to support Ranking Member Pallone's 
Lift America Act which would dedicate $40 billion to building 
out broadband infrastructure in unserved and underserved parts 
of the country.
    We also need to give communities, like Pinetops, the 
freedom and flexibility to provision their own service. That's 
why I'm proud to continue to support Ms. Eshoo's Community 
Broadband Act. Ms. Corker Craig, reading your testimony 
reiterates exactly why this is such an important option for 
rural communities.
    I'm also proud to have introduced the Airwaves Act with Mr. 
Lance. The bill directs the FCC to conduct a number of spectrum 
auctions as well as make significant amounts of new unlicensed 
spectrum available. The bill would set aside a portion of the 
revenue from these auctions for the deployment of new wireless 
broadband infrastructure in served and underserved parts of 
rural America.
    Mr. Aiken discusses, in his testimony, a number of the 
bands in the bill which would be ideal for buildout of 
broadband in rural areas. Specifically, the Citizen's Broadband 
Radio Service or CBRS and the lower C-Band.
    It is important to keep in mind is that these bands could 
be structured in a way that would enhance rural broadband 
deployment, but they don't have to be. The commission is 
currently considering changes to both these bands.
    The CBRS band was envisioned as a model for an innovative 
new spectrum licensing system that would cover smaller areas 
than traditional cellular licenses. This licensing model was 
supported by a broad range of industries, including rural 
broadband providers, who see tremendous potential in being able 
to access smaller more affordable blocks of licensed spectrum. 
But the Commission is considering changes to this band that 
would drastically increase license sizes--crowding out smaller 
players so that only the largest wireless providers could bid 
on these licenses.
    The Commission also opened a proceeding in the lower C-
band. Several satellite companies that operate in this band 
have proposed making a portion of the band available for mobile 
broadband, which is great. But I agree with Mr. Aiken that this 
band has a lot more potential. The rest of the band could be 
shared between satellite operators and broadband providers 
using fixed wireless service. This proposal has the potential 
to greatly expand broadband deployment in rural parts of the 
country.
    In both of these bands the Commission has before it two 
roads. They can work to make as much spectrum available for 
mobile broadband services. At the last hearing we had on that 
topic, every witness acknowledged 5G would not solve the rural-
urban broadband divide. Or the FCC can adopt spectrum policies 
that bring broadband to all Americans.
    I think it's important for members on this subcommittee to 
realize that these are decisions that the Commission is making 
right now that could affect the future of broadband in rural 
communities.
    I yield the remainder of my time to Mr. Butterfield.
    I'd like unanimous consent to include letters from CCA and 
NCTA in the record.

    Mr. Butterfield. Thank you very much, Mr. Doyle, for 
yielding time this morning.
    And thank all of the witnesses for their testimony.
    Madam Chairman, one of the privileges extended to members 
of this committee is to introduce their constituents when the 
committee invites them to testify. So, you can imagine my 
surprise when I learned that the committee had extended an 
invitation to one of my constituents from the town of Pinetops, 
North Carolina, population 1300, to serve as a witness for 
today's hearing on rural broadband.
    The town is a small, rural community located in my district 
in Edgecombe County. The town, with a population of 1300, 
comprises an area of about 1 square mile. In fact, I was in the 
town on Saturday night. I pass through there quite often. I 
stopped at Abrams Bar-B-Q, and former Sheriff James Knight was 
there. And he bought me a plate of barbeque, slaw, and hush 
puppies just this past Saturday night.
    Pinetops, Madam Chairman, is home to my constituent Suzanne 
Coker Craig, who accepted the Committee's invitation to 
testify. Ms. Craig and her husband Doug are small business 
owners in the town. Before starting her business in 2010 that 
continues to grow, Ms. Craig was Director of Advocacy Programs 
for the North Carolina Hospital Association. She served as 
Pinetops' Town Commissioner from 2009 to 2017, played a key 
role in securing high-speed internet service for the 
constituents in the town. And so, I am proud to welcome Suzanne 
to the committee. Suzanne will share her experience of living 
in an extremely rural community and the challenges that she and 
others face when not connected to the digital world.
    Thank you for yielding this time, Madam Chairman and Mr. 
Doyle. At this time, I will yield back.
    Mrs. Blackburn. The gentleman yields back.
    At this time, I recognize Mr. Walden, chairman of the full 
committee, for 5 minutes for an opening.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Madam Chair, and I want to thank my 
colleagues, and certainly our panelists, for being here today.
    Mr. Butterfield, we would have thought we would get to 
sample some of that fine barbeque. Yes, oK, we got that on the 
record.
    I want to welcome our witnesses, as I said, and I really 
appreciate your being here. Particularly, I want to thank my 
constituent, Ms. Jenni Word from the Wallowa Memorial Hospital, 
for coming here all the way from Wallowa County. She is there 
in Enterprise, a population of 1,916 people, and the county, 
with 6800 people, spans 3,152 square miles. So, this is big, 
wide-open country, beautiful mountain ranges, and forests and 
farmland. It is tucked in the far northeast corner of Oregon. 
It is larger than the state of Delaware and very rugged and 
remote.
    I have worked over the years with the health center there 
and the hospital and others on their efforts to build out fiber 
and get really good connectivity. We recently worked together 
with the FCC. Chairman Ajit Pai was in Oregon just after he 
announced he was raising the cap on the FCC's Rural Health Care 
Program. This really helps the folks to allow a county 
healthcare district and other rural providers to get affordable 
broadband service.
    Ms. Word will detail the telehealth opportunities that 
broadband access has opened up, and, most importantly, 
expanding the care patients can receive locally without having 
to travel hours to other hospitals. This is certainly of huge 
benefit in a place where, as a county commissioner once told 
me, Susan Roberts, it is winter 11 months out of the year and 
sometimes it snows in August. And that is true.
    Telemedicine, however, is only one example of the 
opportunities provided by broadband access in our rural 
communities all across America. Eastern Oregon University, Blue 
Mountain Community College, and others, are taking advantage of 
distance learning to expand access to higher education in 
isolated communities. Farmers and ranchers across America, and 
certainly in my district, are using precision agriculture more 
and more to regulate their inputs, and the transition to Next 
Gen 9-1-1 is critical for strengthening public policy.
    After all, broadband is the infrastructure investment of 
the 21st century. Broadband means jobs, and jobs come from 
deployment of broadband, including towers and cell sites, 
fiber, launching satellites, upgrading facilities that 
constitute the physical infrastructure.
    And the economic benefits don't stop at that infrastructure 
investment. Maintaining this infrastructure requires high-
skilled jobs in engineering, network management, cybersecurity, 
advertising, customer service, and much more. Beyond all that, 
we know broadband is a force multiplier for job creation and 
providing efficiencies for every sector of the economy.
    Our Chair ran through some of the bills, including the RAY 
BAUM's Act, but the Chair herself deserves credit for 
spearheading the overall effort. This legislation, now law, 
included many provisions to improve broadband buildout.
    Spectrum auctions, for example, raise billions of dollars 
in federal revenue for deficit reduction and other investments, 
but a quirk in the law prevented the FCC from taking upfront 
payments of auction bidders and depositing the money directly 
with the U.S. Treasury. Though spectrum is the lifeblood of 
wireless broadband, this effectively stopped the FCC from 
conducting further spectrum auctions.
    So, this committee, and under the Chair's leadership, took 
care of that in the RAY BAUM's Act. RAY BAUM's Act fixed this 
by including a bipartisan bill from Mr. Guthrie and Ms. Matsui 
that allows the FCC to deposit legally upfront payments 
directly with the Treasury. As a result, the FCC is now moving 
forward with its upcoming spectrum frontiers auction, which 
will make more high band spectrum available for 5G.
    RAY BAUM's Act, signed into law March 23rd, as you have 
heard, I have a feeling the bill's namesake Ray, who was from 
eastern Oregon and actually represented Wallowa and Union 
Counties in the state legislature, and called them God's 
country, would be very proud of our efforts then and now.
    While some may have been content with that accomplishment 
that we did earlier this year, this subcommittee continues to 
process important bills through regular order. And just last 
week, the full committee took up four more bills that were 
unanimously approved by this subcommittee. So, these bipartisan 
bills include Mr. Tonko and Mr. Lance's ACCESS BROADBAND Act, 
which is an important and necessary step to coordinate funding 
for broadband across different agencies. We also passed Mr. 
Latta and Mr. Loebsack's Precision Agriculture Connectivity 
Act, which requires the FCC and the U.S. Department of 
Agriculture to form a task force to evaluate the best ways to 
leverage broadband for modern high-tech farming and ranching. 
These bills illustrate what we can accomplish when we work 
together, as we do often, on a bipartisan basis.
    However, other Members have put forward bills to address 
rural broadband challenges, and these proposals will deserve 
our attention and consideration as well. And I expect we will 
hear about some of those today and we will continue to work on 
those.
    I look forward to this hearing as a followup to our January 
hearing on closing the digital divide and the numerous other 
infrastructure-related hearings we have conducted this 
Congress. So, we have got more work to do to improve access and 
for telehealth, precision agriculture, education, and jobs 
across America.
    But I want to thank Ms. Word for being here today. We 
really appreciate your coming out. I look forward to your 
testimony.
    I will say in advance we have another hearing going on at 
the same time, so I will be bouncing back and forth. But we 
have the testimony from all of you and we appreciate your 
input.
    With that, Ms. Chair, I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Madame Chairman. I want to welcome our witnesses 
to this hearing on the benefits of rural broadband. In 
particular, I want to thank Ms. Jenni Word with Wallowa 
Memorial Hospital for trekking in clear from Wallowa County, 
Oregon to testify here today.
    Tucked up in the far northeast corner of Oregon, Wallowa 
County is larger than the state of Delaware and has a 
population of just over 6,800 people. It is rugged and remote. 
I worked closely with the hospital and community to help get 
fiber built out into the county, and we recently worked 
together with FCC Chairman Ajit Pai to raise the cap on the 
FCC's Rural Health Care Program. This helps the Wallowa County 
Health Care District and other rural providers get affordable 
broadband service.
    Ms. Word will detail the telehealth opportunities broadband 
access has opened up, most importantly expanding the care 
patients can receive locally without having to travel hours to 
other hospitals. That is certainly a big benefit in a place 
where, as a county commissioner once joked, it's winter 11 
months out of the year and sometimes snows in August.
    Telemedicine, however, is only one example of the 
opportunities provided by broadband access in our rural 
communities. Eastern Oregon University, Blue Mountain Community 
College, and others are taking advantage of distance learning 
to expand access to higher education to isolated communities. 
Farmers and ranchers across my district have taken advantage of 
precision agriculture technology to reduce inputs. And, the 
transition to next generation 9-1-1 is critical for 
strengthening public safety.
    Broadband is the infrastructure of the 21st century.
    Broadband means jobs.
    Jobs come from deployment--building towers and cell sites, 
laying fiber, launching satellites, and upgrading facilities 
that constitute the physical infrastructure.
    The economic benefits don't stop at construction. 
Maintaining this infrastructure requires high-skilled jobs in 
engineering, network management, cybersecurity, advertising, 
and customer service.
    And beyond all that, we know broadband is a force 
multiplier for job creation, providing efficiencies for every 
sector of the economy.
    Chairman Blackburn ran through some of the bills included 
in RAY BAUM's Act, but the Chairman herself deserves credit for 
spearheading the overall effort. The legislation, now law, 
included many provisions to improve broadband buildout.
    Take spectrum auctions for example. Spectrum auctions raise 
billions in federal revenue for deficit reduction. But a quirk 
in the law prevented the FCC from taking upfront payments of 
auction bidders and depositing the money directly with the U.S. 
Treasury. Though spectrum is the lifeblood of wireless 
broadband, this effectively stopped the FCC from conducting 
further spectrum auctions. Bear in mind that we are in a global 
race to 5G.
    RAY BAUM'S Act fixed this by including a bipartisan bill 
from Mr. Guthrie and Ms. Matsui that allows the FCC to deposit 
upfront payments directly with the Treasury. As a result, the 
FCC is moving forward with its upcoming Spectrum Frontiers 
Auction, which will make more high-band spectrum available for 
5G.
    RAY BAUM'S Act was signed into law on March 23rd. I have a 
feeling the bill's namesake, Ray, who was from eastern Oregon 
and often referred to Wallowa County as ``God's country,'' 
would be very proud of our efforts and the positive impact RAY 
BAUM'S Act has made and will make across the country.
    While some may have been content with that accomplishment 
alone, this subcommittee continues to process important bills 
through regular order. Just last week, the full committee took 
up four more bills that were unanimously approved by this 
subcommittee.
    These bipartisan bills included Mr. Tonko and Mr. Lance's 
ACCESS BROADBAND Act, which is an important and necessary step 
to coordinate funding for broadband across different agencies.
    We also passed Mr. Latta and Mr. Loebsack's Precision 
Agriculture Connectivity Act, which requires the FCC and the 
U.S. Department of Agriculture to form a task force to evaluate 
the best ways to leverage broadband for modern, high-tech 
farming and ranching.
    These bills illustrate what we can accomplish when we work 
together to fix problems on a bipartisan basis.
    However, other members have put forward bills to address 
rural broadband challenges, and these proposals deserve 
consideration as well. I expect we'll hear about some of those 
other bills today, and I hope we can continue working on a 
bipartisan basis to get them signed into law.
    I look forward to this hearing as a follow-up to the 
January hearing on closing the digital divide, and the numerous 
other infrastructure-related hearings we've conducted this 
Congress.
    I hope we can continue to work together to expand broadband 
for telehealth applications, precision agriculture, education, 
and economic opportunity across rural America.

    Mrs. Blackburn. The gentleman yields back.
    Mr. Pallone, you are recognized for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair.
    From the start of the Trump administration, there has been 
a bipartisan call to modernize America's infrastructure, 
including expanding broadband to communities that need it. And 
this takes significant resources and cannot be done simply 
through deregulation or streamlining processes. Actual 
investments are needed, and we must see states and local 
governments as partners, not adversaries.
    Committee Democrats recognize the need for real investment 
and to develop legislative proposals to build the modern, 
resilient infrastructure that Americans need and deserve.
    First, the LIFT America Act authorizes this $40 billion in 
grants for the deployment of secure and resilient broadband. 
This comprehensive infrastructure bill, which is supported by 
every Democrat on this committee, will also invest in drinking 
water infrastructure, energy infrastructure, healthcare 
infrastructure, and brownfields redevelopment. These 
investments will make Americans more competitive, safer, 
healthier, and connected.
    Second, Mr. Lujan, along with a number of other Democrats 
on the committee, introduced the Broadband Infrastructure 
Finance and Innovation Act. This bill would authorize $5 
billion worth of secured loans, loan guarantees, and lines of 
credit to finance public/private partnerships for broadband 
deployment.
    Third, Mr. Tonko has introduced the ACCESS BROADBAND Act, 
which was just reported by this committee to the full House of 
Representatives last week. This bill would create an Office of 
Internet Connectivity and Growth to help ensure we are using 
existing broadband programs, and new ones, to get the most bang 
for the buck. I urge my colleagues to bring this bill to the 
House floor as soon as possible.
    Committee Democrats have also put forward many other 
innovative solutions that could make a real change in 
connecting the unconnected and opening up our airwaves for new 
wireless broadband services.
    Unfortunately, the administration and my Republican 
colleagues have placed infrastructure legislation on the back 
burner behind its tax scam that benefits large corporations and 
the wealthiest few. Rather than making real and substantial 
investments in our nation's crumbling infrastructure, they 
instead choose to throw billions of dollars in tax breaks at 
the wealthy who simply do not need them.
    So, I think we need to invest in broadband infrastructure, 
particularly in rural and urban communities that have been left 
behind. According to the FCC, 30 percent of Americans in rural 
areas and 35 percent of Americans living on tribal lands lack 
access to baseline broadband service, and this is based on 
mapping data that we know underreports the scope of the 
problem.
    So, it is time to act. Democrats have bold proposals that 
will actually drive broadband deployment in all 50 states. 
These proposals are technologically-neutral and open the door 
to all internet service providers that can deliver fast and 
secure broadband access. We need to think outside the box in 
our effort to connect all Americans to the benefits of the 
internet. I look forward to hearing from our witnesses on how 
we can ensure access to high-speed broadband throughout 
America, including rural communities.
    On a brief personal note, if I could just say I was 
incredibly saddened to hear that Robin Colwell of the 
subcommittee's majority staff lost her husband, Bill, over the 
weekend following his battle with cancer. I want to offer our 
deepest condolences from the Democratic side and sympathies to 
her and her family in this trying time.
    I yield back, Madam Chair.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    From the start of the Trump Administration, there has been 
a bipartisan call to modernize America's infrastructure, 
including expanding broadband to communities that need it. This 
takes significant resources and cannot be done simply through 
deregulation or streamlining processes. Actual investments are 
needed, and we must see states and local governments as 
partners--not adversaries. Committee Democrats recognized the 
need for real investment and developed legislative proposals to 
build the modern, resilient infrastructure Americans need and 
deserve.
    First, the LIFT America Act authorizes $40 billion in 
grants for the deployment of secure and resilient broadband. 
This comprehensive infrastructure bill, which is supported by 
every Democrat on this Committee, also invests in drinking 
water infrastructure, energy infrastructure, health care 
infrastructure, and brownfields redevelopment. These 
investments will make Americans more competitive, safer, 
healthier, and connected.
    Second, Mr. Lujan, along with a number of other Democrats 
on the Committee, introduced the Broadband Infrastructure 
Finance and Innovation Act. This bill would authorize $5 
billion worth of secured loans, loan guarantees, and lines of 
credit to finance public private partnerships for broadband 
deployment.
    Third, Mr. Tonko has introduced the ACCESS Broadband Act, 
which was just reported by this Committee to the full House of 
Representatives last week. This bill would create an Office of 
Internet Connectivity and Growth to help ensure we're using 
existing broadband programs, and new ones, to get the most bang 
for the buck. I urge my colleagues to bring this bill to the 
House floor as soon as possible.
    Committee Democrats have also put forward many other 
innovative solutions that could make a real change in 
connecting the unconnected and opening up our airwaves for new 
wireless broadband services.
    Unfortunately, the Administration and my Republican 
colleagues have placed infrastructure legislation on the 
backburner behind its tax scam that benefits large corporations 
and the wealthiest few. Rather than making real and substantial 
investments in our nation's crumbling infrastructure, they 
instead chose to throw billions of dollars in tax breaks at the 
wealthy who simply do not need them.
    We need to invest in broadband infrastructure, particularly 
in rural and urban communities that have been left behind. 
According to the FCC, 30 percent of Americans in rural areas--
and 35 percent of Americans living on tribal lands--lack access 
to baseline broadband service. And this is based on mapping 
data that we know underreports the scope of the problem.
    It is time to act. Democrats have bold proposals that will 
actually drive broadband deployment in all 50 states. These 
proposals are technologically neutral, and open the door to all 
internet service providers that can deliver fast and secure 
broadband access. We need to think outside the box in our 
effort to connect all Americans to the benefits of the 
internet.
    I look forward to hearing from our witnesses on how we can 
ensure access to high-speed broadband throughout America, 
including rural communities.
    On a brief personal note, we were all incredibly saddened 
to hear that Robin Colwell of the subcommittee's majority staff 
lost her husband-Bill-over the weekend following his battle 
with cancer. I want to offer our deepest condolences and 
sympathies to her and her family in this trying time.
    With that, I yield the balance of my time.

    Mrs. Blackburn. The gentleman yields back. No one is 
seeking to claim his time.
    We appreciate so much the thoughts and condolences for 
Robin. We know that you all wish Robin and her girls well 
during this sad time.
    This concludes our member opening statements. The Chair 
would like to remind members that, pursuant to the committee 
rules, all members' opening statements will be made a part of 
the record.
    We want to thank all of our witnesses for being here today 
and taking the time to accept the invitation and come before 
the subcommittee. Today's witnesses will have the opportunity 
to give their opening statements, followed by a round of 
questions.
    Our panel for today's hearing will include Mr. Tom Stroup, 
President of the Satellite Industry Association; Mr. Justin 
Forde, Senior Director of Government Relations at Midco; Mr. 
Claude Aiken, President and CEO of the Wireless Internet 
Service Providers Association; Mr. John May, President of Ag 
Solutions and the Chief Information Officer at John Deere & 
Company; Ms. Jenni Word, Associate Administrator and Chief 
Nursing Officer at Wallowa Memorial Hospital in Oregon, and Ms. 
Suzanne Coker Craig, a former Commissioner of the town of 
Pinetops and the current Managing Partner at CuriosiTees of 
Pinetops.
    We appreciate each of you being here today, and we 
appreciate your testimony.
    We will begin with you, Mr. Stroup, 5 minutes for your 
opening statement.

    STATEMENTS OF TOM STROUP, PRESIDENT, SATELLITE INDUSTRY 
   ASSOCIATION; JUSTINE FORDE, SENIOR DIRECTOR OF GOVERNMENT 
  RELATIONS, MIDCO; CLAUDE AIKEN, PRESIDENT AND CEO, WIRELESS 
INTERNET SERVICE PROVIDERS ASSOCIATION; JOHN C. MAY, PRESIDENT, 
   AG SOLUTIONS, AND CHIEF INFORMATION OFFICER, JOHN DEERE & 
COMPANY; JENNI WORD, ASSOCIATE ADMINISTRATOR AND CHIEF NURSING 
OFFICER, WALLOWA MEMORIAL HOSPITAL; AND SUZANNE COKER CRAIG, A 
   FORMER COMMISSIONER OF THE TOWN OF PINETOPS AND MANAGING 
               PARTNER, CURIOSITEES OF PINETOPS.

                    STATEMENT OF TOM STROUP

    Mr. Stroup. Chairman Blackburn, Ranking Member Doyle, and 
distinguished members of the subcommittee, thank you for having 
me testify here today.
    I am Tom Stroup, President of the Satellite Industry 
Association.
    Satellite communication services are positioned to be the 
keystone for bringing 21st century broadband capabilities to 
the entirety of the United States. These services are capable 
of providing broadband to rural and remote areas of the 
country, where it remains uneconomical for terrestrial services 
to deploy, and both provide speeds and prices comparable to 
terrestrial alternatives. These services are available directly 
to the consumer today, covering all 50 States and delivering 
broadband offerings up to 100 megabits per second.
    Satellite broadband is also used by business and government 
enterprises for both fixed and mobile purposes, using a range 
of spectral bands to deliver assured access to broadband 
communications. Further, satellites are providing critical 
backhaul internet connectivity to local internet service 
providers and community institutions in remote locations. 
Today, approximately 2 million customers nationwide are 
enjoying high-quality satellite broadband services at 
reasonable rates and at speeds that meet and exceed the FCC's 
definition of broadband service.
    The satellite industry is investing tens of billions of 
dollars to innovate and increase broadband connectivity to the 
U.S. and across the globe. High-throughput satellites, for 
example, rely on frequency reuse and spot-beam technology to 
produce increased output factors upward of 20 times that of 
traditional satellites.
    The industry has seen similar increases in the capacity of 
its systems. The first broadband satellite began service in 
2008 with a capacity of 10 gigabits per second. Today's 
satellites have capacities of up to 260 gigabits per second, a 
number expected to increase to 1,000 gigabits per second by the 
end of the decade. These terabit-capacity geostationary 
satellites will provide orders of magnitude capacity increases.
    In another highly anticipated advancement in the industry, 
thousands of new, high-throughput, non-geostationary satellites 
will soon join existing operators in low-earth and medium-earth 
orbits to provide additional high-speed broadband at low 
latency levels. Indeed, prototypes of these satellites have 
already begun to launch.
    As Congress develops its broadband policies, it should 
consider the many positive attributes of satellite broadband. 
These include, No. 1, competition. Just as it has with radio 
and television services in the past, satellite services provide 
market-based competition to terrestrial broadband services. 
Satellite broadband brings additional package options, pricing, 
and innovative services to consumers, often in areas with only 
a single or small number of providers.
    No. 2, wide geographic coverage. To address the digital 
divide, broadband services need to be available for the most 
rural and remote areas of the country. The nature of 
satellite's wide coverage ensures that all communities within 
the satellite's footprint receive the same quality of service, 
whether they are remote communities or big cities. Public 
policy makers should leverage terrestrial-style incentives with 
satellite's geographically-independent cost structure to 
achieve universal communication services.
    No. 3, availability. Unlike terrestrial service, satellite 
broadband is available today across a significant portion of 
the country without the buildout of additional infrastructure. 
Customers can obtain satellite broadband services by simply 
ordering and awaiting at-home installation.
    No. 4, cost efficiency. Because satellite systems have 
inherently wide area coverage, when technology-neutral 
incentives are made to encourage capacity redirection, there is 
no additional cost to build out to rural and remote areas, only 
lost opportunity costs in more lucrative service areas. This is 
unlike terrestrial services, where the low density of rural and 
remote areas makes it costlier and in most cases not 
economically viable to build out and cover these areas.
    And, 5, reliability. Natural and manmade disasters can 
interrupt terrestrial broadband services. Satellites, however, 
are less affected by these events, and satellite ground systems 
or satellite-enabled airborne equipment can be quickly deployed 
to restore connectivity.
    Of course, all of the breakthroughs we have seen because of 
satellite technologies should not be taken for granted. They 
depend upon our industry's ability to access spectrum. In order 
for our industry to sustain and meet the growing demand for 
satellite services, we encourage regulators to continue to 
allocate sufficient spectrum for satellite use and to support 
the national broadband mapping system as to provide a clear and 
complete map of broadband services.
    Thank you, and I look forward to your questions.
     [The prepared statement of Mr. Stroup follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Forde, you are recognized, 5 minutes.

                   STATEMENT OF JUSTIN FORDE

    Mr. Forde. Chairman Blackburn, Ranking Member Doyle, and 
members of the subcommittee, thank you for inviting me here 
today to discuss the challenges we face and the solutions we 
are working on to bring the benefits of broadband to rural 
America.
    My name is Justin Forde, and I am the Senior Director of 
Government Relations for Midco. Midco is the leading provider 
of internet and networking, cable TV, phone, data center, home 
security, and advertising services in the Upper Midwest. We 
serve more than 385,000 residential and business customers in 
South Dakota, North Dakota, Minnesota, Kansas, and Wisconsin in 
communities ranging in size from less than 100 people to more 
than 180,000.
    Midco has a history of innovation in the Upper Midwest that 
continues to motivate our business today. In 2017, we launched 
the Midco Gig Initiative, a commitment to bring gigabit 
internet speeds to our entire service area. We have invested 
over $56 million in the Gig Initiative over and above the 
millions of dollars we invest in our network annually. Today, 
Midco Gig is available to more than 80 percent of our 
customers, with more communities to come in 2018.
    We are also focused on expanding our service to more cities 
and more communities across the region, but there are 
challenges and high costs associated with building fiber in our 
area of the country. While thinking about a creative solution 
to this challenge, we were contacted by the rural community of 
Brooktree Park, North Dakota, to help them obtain broadband 
access. We quickly determined that bringing wireline service to 
the area was not economically feasible, but we partnered with 
InvisiMax, a fixed wireless provider, and we were able to offer 
broadband service to that area within 30 days.
    Recognizing the potential of the fixed wireless solution to 
provide broadband to more rural residents, Midco has acquired 
InvisiMax, and we have begun to expand fixed broadband wireless 
with service more broadly in rural areas within our footprint. 
Fixed wireless allows us to reach areas that are up to 50 miles 
away from our fiber network, and we can implement that solution 
relatively quickly without the expense of constructing fiber 
networks.
    We can use fixed wireless to offer internet where the 
terrain can make it difficult, if not impossible, to provide 
wire internet, such as the Badlands of North and South Dakota, 
the granite fields of northern Minnesota, or the limestone 
cliffs in eastern Minnesota. We can also reach vast areas of 
farmland where it is not economically feasible to run fiber to 
every single acre. We can deploy new fixed wireless during the 
winter months, when difficult winters make new fiber 
construction impossible.
    I, myself, am a Midco fixed wireless customer. I get my 
internet from the top of a grain elevator in Prosper, North 
Dakota, to my small farmstead 6 miles west of Argusville, North 
Dakota. On a normal day, my three kids are streaming video or 
other content while my wife is using the internet to run a 
small business. This service has been a great asset to our 
family. Even today, it allows me to keep an eye on the farm 
from Washington, D.C., through a video and security systems 
enabled by fixed wireless.
    Midco supports your hard work to ensure that all Americans 
have access to broadband services. We greatly appreciate the 
bipartisan commitment of this committee to produce bills that 
nurture a broadband-deployment-friendly atmosphere. Your 
efforts on the RAY BAUM's Act and the MOBILE NOW Act to include 
broadband deployment provisions like the dig-once policy and a 
spectrum policy bouncing licensed and unlicensed uses, your 
thoughtful consideration of the ACCESS BROADBAND Act, have 
contributed to an environment in which we are more able to 
easily invest, expand, and deploy.
    Today, I would like to offer two suggestions for how you 
might help us further advance the reach of broadband networks. 
First, in some cases, government help is needed to bring 
broadband access to areas it is not financially viable to 
build. In the past, some broadband funding programs have 
allowed funds to be uses in places that already have broadband 
service. We were encouraged to see the pilot funding program in 
the Omnibus Appropriations Act and in the Senate farm bill that 
both seek to limit funding to areas that need it most. We ask 
your support efforts to keep broadband funding dollars to 
unserved areas.
    Second, to serve the greatest number of rural residents via 
fixed wireless, we must have the ability to purchase spectrum. 
We need more wide channels and spectrum bands where we receive 
interference protection, and we must have a fair ability to 
compete for access to any spectrum that is open and appropriate 
for fixed wireless service.
    Congress should support the FCC in its effort to expand the 
categories of eligible uses for certain underutilized spectrum 
bands, like 2.5 gigahertz, and support the FCC in adopting 
smaller license sizes and appropriate auction rules for bands 
that have potential for fixed wireless in rural areas. These 
actions will help all Americans, including those in rural 
America, to receive the full potential of America's broadband 
networks.
    Thank you again for inviting me here today, and I look 
forward to working with all of you on these important issues.
    [The prepared statement of Mr. Forde follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Aiken, you are recognized.

                   STATEMENT OF CLAUDE AIKEN

    Mr. Aiken. Good morning, Chairman Blackburn, Ranking Member 
Doyle, and members of the subcommittee.
    I am Claude Aiken, President and CEO of WISPA, the Wireless 
Internet Service Providers Association, representing more than 
800 small businesses who are closing the digital divide in 
rural America. I am honored to offer our perspective on how 
fixed wireless broadband is making a difference in rural 
America.
    The majority of our members got their start the same way. 
They were bootstrapping entrepreneurs who saw the need for 
better broadband in their communities and answered the call. 
Whether it was via maxed-out personal credit cards, small loans 
from family members, or putting their life savings on the line, 
our members have built workable, cost-efficient, local networks 
and given their neighbors what they never had before, high-
speed broadband internet.
    Our members use whatever spectrum is available, unlicensed, 
lightly licensed, or licensed spectrum. They lease whatever 
infrastructure is available to hang radios. It may be 
commercial towers, local water towers, or a neighbor's grain 
silo or barn. They transmit internet data, often over many 
miles, to small fixed receivers on their customer's premises, 
and they provide high-speed, low-latency, uncapped broadband, 
typically in the range of 5 to 50 megabits per second, and 
speeds of up to 1 gigabit per second are possible with current 
technology.
    Our members are overwhelmingly small, local, rural 
providers. More than half have fewer than 1,000 customers. 
Almost three-quarters have fewer than 10 employees. But, 
despite their small size, they are making a difference, serving 
more than 4 million people across our nation, and the majority 
do this without any government subsidies.
    Most importantly, WISPs can deploy fixed wireless service 
to residential consumers at about one-seventh the cost of fiber 
and one-fourth the cost of cable. That is right, we can deploy 
broadband for a fraction of the cost of fiber and cable, and we 
can deploy much more quickly, usually in months, rather than 
years.
    Clearly, we are a significant part of the solution. So, how 
can we in D.C. help unleash the power of fixed wireless 
economics to better serve your communities? The most important 
thing the subcommittee can do is to support more flexible, 
shared, and lightly licensed use of underutilized spectrum 
bands. Our members are often frustrated that they have 
potential customers within range of their towers, but 
insufficient spectrum to serve them, all the while licensed 
spectrum in their areas goes unused.
    Thankfully, this subcommittee has been a part of the 
solution. We commend your work to lower barriers to 
infrastructure deployment, streamline regulations, and widen 
the spectrum pipeline. Legislation like the AIRWAVES Act and 
the ACCESS BROADBAND Act will make a difference in rural 
America.
    WISPA also commends the FCC for moving forward on 
rulemaking proceedings that could and should make more spectrum 
available for rural broadband deployment. The FCC is at a 
critical juncture on one proceeding that I will briefly 
highlight, the ongoing Citizens Broadband Radio Service, or 
CBRS, proceeding. It is no exaggeration to say that this 
proceeding is vitally important to the future of rural 
broadband.
    In 2015, the FCC adopted innovative rules that would have 
auctioned seven 10-megahertz spectrum licenses in blocks the 
size of Census tracts, about 4,000 people each. But, last 
summer, the FCC reopened the rule seeking comment on greatly 
enlarging the license areas, up to the size of a partial 
economic area which generally contain both urban and rural 
areas and often cross state lines.
    For our members, enlarging the license areas would be like 
requiring an entrepreneur who wants to open a kiosk to purchase 
an entire shopping mall. Our members need the FCC to keep the 
existing unlicensed or GAA spectrum allocation intact and 
retain small, Census-tract-sized licenses in the CBRS band. 
This would increase auction participation and revenues and 
enable our members, and all kinds of entrepreneurs and 
innovators, to participate in the auction, not just our largest 
companies.
    And here's another reason why balanced spectrum policy is 
so important. If rural service can be deployed at much lower 
cost by fixed wireless providers, there is much less need for 
doling out subsidies to large carriers to offset their much 
higher costs. For example, ZIRKEL Wireless in Colorado is 
serving areas with one person per square mile without any 
government subsidies. With the right spectrum policy, access to 
private capital will become easier for small providers, and 
broadband deployment in rural and small town America will 
accelerate.
    To the extent subsidiaries are necessary, they should be 
made available in a technology-neutral and a provider-neutral 
manner. Too often, small WISPs find themselves overbuilt by 
providers receiving state or federal subsidies. We need to work 
together to find solutions that will prevent small companies 
that have invested private capital from facing competition from 
large companies backed with government subsidies, grants, and 
loans.
    Madam Chairman, our members are closing the rural broadband 
gap without subsidies, and we call on you to help modernize and 
rebalance U.S. spectrum policy, so that we can reach even more 
Americans in underserved areas.
    We thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Aiken follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. May, you are recognized.

                     STATEMENT OF JOHN MAY

    Mr. May. Chairman Blackburn and Ranking Member Doyle, thank 
you for the opportunity to be here today and speak about rural 
broadband, a very important issue for many farmers and others 
in the agricultural sector.
    My company, John Deere, is the global leader in manufacture 
of agricultural, construction, turf, and forestry equipment. 
For 181 years, Deere has been helping farmers get more 
production from their fields in an efficient and sustainable 
manner. Technology, a big part of agriculture and the John 
Deere story, is the key to helping farmers meet the world's 
needs for food and agricultural goods in the future. And having 
access to broadband internet services is absolutely essential 
to leveraging the benefits that technology has to offer.
    The evolution of technology in agriculture is critical. 
That is because global demand for agricultural output, which 
has more than tripled since 1960, shows no signs of easing. 
Given forecasts of global population growth and dietary 
improvements, farm output will need to roughly double from 2000 
levels to meet the projected demand in 2050. What's more, these 
output gain will need to take place with essentially the same 
amount of land and water, and probably less labor. By and 
large, the technologies needed to produce these gains depend on 
the delivery of reliable internet connections to farmers in the 
field, something many farmers can't count on today.
    The extent of the broadband access problem in agriculture 
is hard to measure in exact terms, but we know anecdotally it 
is a significant issue. Based on the rate of successful 
connections between our John Deere customers and our data 
management platforms, we know there are many instances where 
producers cannot fully leverage the benefits of their data on 
account of nonexistent or unreliable internet service. This is 
to say nothing about connections that are never made or even 
attempted by those who lack internet service and don't bother 
to invest in the technologies in the first place.
    The nature and the extent of the problem is exactly why we 
believe Federal policy and programs should give more 
consideration to the needs of farmers and ranchers. Without a 
better understanding of the problem, we can't begin to design 
the right solution.
    John Deere commends the Energy and Commerce Committee's 
approval of H.R. 4881, the Precision Agricultural Connectivity 
Act. Along with our partners in the Agricultural Broadband 
Coalition, John Deere endorsed the bill. We see it as an 
important first step to addressing agricultural broadband 
issues. We are hopeful this legislation will be enacted this 
year, either as part of the farm bill or on its own.
    We also believe federal agencies with broadband deployment 
mandates should view access through an expanded lens, one that 
incorporates a geographic and functional usage metric, as 
opposed to looking only at population centers. In our view, 
broadband access on active cropland should be included as a 
metric for identifying areas where broadband infrastructure 
investment is most needed.
    Cell towers are for the time being the key for delivering 
high-speed LTE terrestrial signals, and we need more of them 
over croplands and ranchlands. As you know, farms represent a 
significant source of commercial activity in rural communities. 
Owners, employees, buyers, vendors, and service providers all 
conduct business in and around the farm operations. Supporting 
increased wireless broadband deployment in the very places 
where farming activities occur, in the fields, will bring many 
benefits to rural communities. These include increased economic 
growth, improved environmental stewardship, and enhanced food 
security.
    John Deere's higher purpose or mission is to help people 
live better lives through our commitment to those that are 
linked to the land. Today, we are expressing that commitment in 
the many ways we are developing and using technology, almost 
all of which is digital in nature and internet-based. That will 
help feed the world in a sustainable manner for generations to 
come.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. May follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. We thank the gentleman.
    Ms. Word, you are recognized for 5 minutes.

                    STATEMENT OF JENNI WORD

    Ms. Word. Good morning, Chairman Blackburn, Ranking Member 
Doyle, members of the subcommittee. Thank you for this 
opportunity to appear before you today.
    My name is Jenni Word. I serve as the Associate 
Administrator and Chief Nursing Officer at Wallowa Memorial 
Hospital in Enterprise, Oregon. Our facility is a 25-bed 
critical-access hospital and Level IV trauma center. I am proud 
to report we have been named one of the top 20 critical-access 
hospitals in the Nation for the past 2 years.
    Our hospital serves Wallowa County and, as Congressman 
Walden referred to before, has a population of just under 7,000 
people spread over 3,152 square miles in frontier northeastern 
Oregon. That is a population density of 2.2 persons per square 
mile. The next nearest hospital, also a critical-access 
hospital, is 65 miles away.
    I would like to focus my testimony on the important role 
broadband plays in bringing telehealth services to rural and 
frontier areas. Our hospital provides a wide array of services, 
but not all the services our community needs. Telehealth has 
enabled us to fill this gap and ensure access to high-quality 
care in our frontier county.
    In my written testimony, I provided three examples that 
illustrate the lifesaving role telehealth can play in areas 
like ours. Broadband infrastructure is the foundation on which 
providers like ours can use telehealth technology to meet 
health crises like these.
    Moving forward, reliable, affordable broadband in homes and 
remote rural hospitals and clinics will be critical as we 
transform the current healthcare delivery system. Our goal is a 
system that effectively coordinates care for our patients, 
rewards value, improves quality and patient safety, and reduces 
costs. Broadband is the lynchpin of that effort.
    We are fortunate in Wallowa County to have good broadband 
infrastructure. But, even so, our county has many remote areas 
that do not yet have broadband connectivity. Nationwide, the 
Federal Communications Commission reports that 34 million 
Americans still lack access to adequate broadband.
    Oregon has made significant progress in the deployment of 
broadband connectivity. However, a 2014 survey of broadband 
adoption in Oregon found that rural areas lagged behind their 
urban neighbors in having access to broadband connectivity and 
rural residents are less likely than their urban counterparts 
to use broadband technologies.
    The Mississippi State Extension Service Index identified 
Wallowa County as one of 10 Oregon counties with the highest 
digital divide index. Congress took steps in the fiscal year 
2018 omnibus appropriations bill to address the digital divide, 
and the FCC recently increased funding available through the 
Rural Health Care Program, which supports broadband adoption 
for the nonprofit rural healthcare providers. We applaud both 
of these actions and thank you for your role in making them a 
reality. As these programs are implemented, we look forward to 
taking advantage of these new resources.
    Finally, I would like to say something about telehealth. 
The potential for telehealth to expand access to medical 
treatment seems limitless, especially in rural and frontier 
areas where vast distances make it difficult to get to a doctor 
or to a hospital. However, there are barriers preventing us 
from realizing that potential. For example, Medicare payment 
policy restricts sites eligible for reimbursement, limits 
distance site providers, and restricts the services for which 
Medicare will reimburse. Medicare does not reimburse for remote 
patient monitoring, a potentially vital tool in monitoring 
patients with chronic conditions, especially those in rural 
areas. Medicare also doesn't reimburse for phone, email, fax-
based services, or store-and-forward technology.
    Providers would like these geographic and setting location 
requirements eliminated and expansion of the types of 
technology that can be used, and coverage for all services that 
are safe to provide. Rural communities also need additional 
capital to develop telehealth capabilities as well as adequate 
funding to operate systems, once they are up and running.
    I am pleased that the Bipartisan Budget Act of 2018 
expanded Medicare coverage for telestroke and provided waivers 
for some alternative payment models, but more should be done. 
Every week, it seems, new technologies become available to help 
patient needs. The use of telehealth and other new technologies 
will improve access to healthcare, improve outcomes, and reduce 
costs. Public policy should not hold us back as we seek to 
realize the potential these new technologies hold.
    I applaud the Committee and its Chair and my Congressman, 
Greg Walden, for the leadership it has shown in addressing 
these challenges. There is certainly more work to do, and 
Wallowa Memorial Hospital and other rural hospitals stand ready 
to work with you in that effort.
    Thank you.
    [The prepared statement of Ms. Word follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. We thank the gentlelady.
    Ms. Coker Craig, you are recognized for 5 minutes.

                STATEMENT OF SUZANNE COKER CRAIG

    Ms. Coker Craig. Thank you all for your invitation this 
morning. I appreciate the opportunity to be here.
    And thank you to Congressman Butterfield for the 
introduction. I am glad to hear you are hanging out at Abrams.
    [Laughter.]
    My name is Suzanne Coker Craig, and I am a small business 
owner and former Commissioner in the town of Pinetops, North 
Carolina. Our little town is 65 miles east of Raleigh and is 
centrally located between Greenville, Wilson, and Rocky Mount. 
We have a significant number of our residents who live well 
below the poverty level, and we are located in Edgecombe 
County, which is one of the poorest counties in the State. 
Unlike much of North Carolina, our local population has 
declined over the last 20 years, and we struggle to attract and 
keep college-educated people as well as small businesses and 
small industry in our area.
    Even with all of these challenges, Pinetops is a wonderful 
community in what I consider to be the best part of North 
Carolina. We have all the benefits of small town life, but are 
an easy drive to small cities around us. We are a great place 
to live and to raise a family. And in March of 2016, our little 
town got symmetrical gigabit speed broadband internet service 
that made my 25-year-old nephew in Raleigh jealous.
    But our own State legislature has constantly fought to 
disconnect us and take away the best economic, educational, and 
lifestyle benefit we have had in 50 years. Like most small 
areas, ours got left way behind in the technology boom. As the 
internet exploded, we struggled to get much more than a dial-up 
connection. Our only provider showed little interest in 
upgrading their antiquated services beyond what they billed as 
high-speed internet, which was defined as up to 10 megabits of 
service. Speed tests commonly showed that that was really 
between 4 and 6 megabits download with less than 1 megabit 
upload. And that was within a quarter mile of their hub. This 
would have been great service in 2000, but in 2015 it was a 
serious challenge to running a small business and providing 
access to modern education or healthcare. Other providers 
served nearby towns in our area, but were not at all interested 
in serving Pinetops.
    So, around 2008, the city of Wilson, which is 17 miles west 
and in neighboring Wilson County, began providing gigabit-speed 
fiber-to-the-premises internet service to their citizens. They 
borrowed money from private investors and have repaid them with 
revenues from the network without using taxpayer dollars.
    The city of Wilson has provided electric service to the 
town of Pinetops for well over 40 years and has been a great 
partner for our little town. So, we asked Wilson if they could 
bring that fantastic internet service our way. Well, in 2011, 
the North Carolina General Assembly passed a law that not only 
put significant restrictions on building municipal broadband 
networks, but also specified that Wilson could not take their 
network beyond the Wilson County line, which was 6 miles away 
from Pinetops. So, we were sentenced by our own legislature to 
being 6 short miles away from technology that could help us 
help ourselves.
    In 2015, the FCC preempted that state law and opened a 
window for Pinetops to invite Wilson to bring their internet 
service, which is called Greenlight, to us. So, in March of 
2016, Pinetops residents eagerly began signing on as Greenlight 
customers.
    I spoke with several people in town who telecommute or have 
small businesses, and the difference in service was amazing. 
One neighbor who works for a large banking operation described 
downloading and uploading her daily work files in 15 minutes 
instead of the hours it had taken with the fastest service that 
CenturyLink could provide. A small furniture manufacturer in 
town reported downloading large files from international 
customers in an hour or two rather than the 12-plus hours it 
had taken earlier. A local fire chief was able to use for the 
first time online video resources to train his volunteer 
firemen. Families with multiple children no long had to 
timeshare to finish their online assignments. The service was 
fantastic, and we on the town board were working to promote 
Pinetops as the little town with symmetrical gigabit internet 
service.
    But, once again, our legislature betrayed us. The state 
sued to overturn the FCC's ruling, and they won. Greenlight 
would have to be forced to leave Pinetops, and we would be 
forced to take 10 giant steps back economically.
    About the same time, Hurricane Matthew hit, and we were 
flooded terribly. The Greenlight techs were there within hours 
of the roads opening and hooking up the emergency shelters and 
the disaster operations. Our town board, with the enthusiastic 
backing of the residence and business, were eager to fight to 
keep Greenlight. And so, we were able to get an exemption, with 
a lot of fighting, that would allow Pinetops to keep 
Greenlight. But, if another provider came in providing fiber 
services, Greenlight would have to leave. And we couldn't get 
language in the legislation that would make that service have 
to be comparable or serve everyone in town.
    So, we got the exemption and we were happy with that. But 
now, Suddenlink has decided that, since they didn't want to 
serve us with basic service, now they are bringing fiber to 
Pinetops. So, Greenlight has to leave.
    Good internet service in today's economy is as essential as 
electric power was in the forties and fifties. Rural areas and 
small towns then had to be creative and resourceful and rely on 
municipalities and co-ops to provide electricity in areas that 
private providers weren't willing to serve. If not for the 
forward-thinking leaders of that time, it is hard to imagine 
how small-town America would have survived. We still have to be 
creative and resourceful in keeping our towns alive. We have to 
be given the freedom to use all the tools we have.
    I need to emphasize that, while Pinetops now has broadband 
access, that great service is limited to our 1-mile-square town 
limits. Wilson would be connecting those homes, small towns, 
farms, and outlying areas if the state barriers didn't exist.
    The solution to getting rural communities connected will 
not come from one-size-fits-all legislation. It will not come 
from waiting for large providers to come to our communities.
    Mrs. Blackburn. The gentlelady's time has expired. If you 
can wrap up?
    Ms. Coker Craig. Yes, ma'am. I am sorry about that.
    [The prepared statement of Ms. Coker Craig follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. You are perfectly fine. We are so 
appreciative that each of you are here. We appreciate your 
testimony.
    This concludes our testimony, and we will now move into our 
Q-and-A portion of our hearing. And I will yield myself 5 
minutes for questions.
    Mr. Stroup and Mr. Aiken, I want to start with you. In your 
testimony, you mention existing alternatives in the marketplace 
to a big government approach that removes the ability for 
states to make important decisions that directly impact their 
financial health. One of the bills that does cause me concern 
is the Community Broadband Act, which I think would threaten to 
undo much of the progress that is being made across the 
country. The bill is essentially a further-reaching version of 
the FCC's failed 2015 Municipal Broadband Order, which 
basically preempted the fiscally-responsible measures that 
Tennessee had put in place regarding municipal networks.
    So, Mr. Stroup, can you expand on the differences, the 
specific advances, that some of your member companies have made 
in recent years that have positioned them to become competitors 
in the broadband market across the country? And is there 
anything additional that we can do to help increase 
competition?
    And then, Mr. Aiken, to you, kind of looking in that same 
vein, but from the wireless side, talk about how fixed wireless 
has become a viable alternative. And are there specific 
examples that might be illustrative to the committee?
    Mr. Stroup, to you first, please, sir.
    Mr. Stroup. As I noted in my testimony, certainly the most 
important things that our members have done is to increase the 
capacity of the satellites that have been launched as well as 
the speed, which ultimately makes the services more cost-
effective. So, I noted just the change in the last 10 years, 
there has been a 20 times increase in the capacity of the 
satellites. Satellite services start at $49 a month. And so, 
those are the two and three most important things that the 
industry has done.
    As I also noted, there are plans to launch additional LEO 
satellite systems. To give you a sense of that, there are 
approximately 1700 satellites on orbit today. There are 
satellite applications that have either been granted or pending 
at the FCC for over 18,000 satellites. So, the growth in the 
industry is tremendous. The capacity that will be available is 
increasing accordingly.
    And the thing that is most important to us is continued 
access to spectrum and technology neutrality. Without spectrum, 
we do not have the opportunity to grow, and we just want to 
make sure that neither Congress nor the FCC weights the scale 
against any one industry against the other.
    Mrs. Blackburn. OK. Mr. Aiken?
    Mr. Aiken. Thank you for the question.
    I think it is best illustrated with a story. Many farms 
across our great country are not connected to broadband, and 
this was the story of Lone Oaks Farm in Middleton, Tennessee, 
that didn't have any broadband connectivity to the farm. Along 
came Crossroads Wi-Fi, a fixed wireless provider who offered a 
robust business-grade broadband connection to that farm using 
the spectrum band that I mentioned in my opening testimony, the 
CBRS band.
    Through that broadband connection, that 2,000-acre farm was 
on the short list to be considered by the University of 
Tennessee for purchase. The University of Tennessee purchased 
that farm, turned it into a 4H state facility and a research 
institution. And that small, local provider was able to grow 
the bandwidth with the university, and it is just a great story 
of how a small provider can provide big solutions to rural 
America.
    Mrs. Blackburn. I appreciate that, and that is a beautiful 
property.
    Mr. Forde, permitting issues are a struggle. I would assume 
small providers are disproportionately impacted. But we hear 
about permitting issues regularly. They talk about the 
burdensome application process. I wish you would elaborate on 
that and, also, the fact that the Senate now has a discussion 
draft that would streamline small-cell deployment.
    What we need to do is look at what more is needed to 
unleash this private capital, to streamline this process, and 
to make available more small cells that are like on the grain 
elevator at your location.
    Mr. Forde. Well, thank you, Chairman Blackburn.
    Regarding the first part of your question, we have worked 
very hard to continue to deploy broadband. We have had some 
issues in some areas. Recently, in North Dakota we tried to run 
some fiber from the Killdeer area up to Watford City and to 
Williston. We had to hire several engineering firms, and some 
difficult permitting issues crossing the Missouri River. So, 
that is certainly one of the issues that we faced. That project 
was delayed by several months that allowed service to get to 
those areas.
    Regarding the small cell, certainly utilizing those areas 
and some of our more urban areas in our footprint in that 
legislation, but also I don't know if that is the solution for 
some of our rural areas. We believe that the fixed wireless 
technology will be able to cover much greater distances between 
those elevators, between those farms, and the small cell will 
be good for some areas that are a little bit more urban, a 
little bit more populated.
    We want to make sure, also, that we have a level playing 
field there, us as a provider, that those folks----
    Mrs. Blackburn. My time has expired.
    I recognize Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you, Madam Chair.
    Mr. Aiken, the Commission is currently considering changes 
to the license structure of the CBRS band. Based on your 
testimony, it sounds like many of your members had already 
started making investments in new technology based on how this 
band was to be structured.
    First, I would like to ask you, do you think that if the 
Commission acts to expand the geographic size of the spectrum 
licenses, that your members and other rural providers will be 
able to successfully bid for those licenses?
    Mr. Aiken. The short answer there, Congressman, is no.
    Mr. Doyle. And what do you think will be lost if the 
licenses in these bands are made to be like traditional 
cellular licenses?
    Mr. Aiken. So, this band, it is absolutely critical to 
expand rural broadband. As you mentioned, a number of our 
members have already built out in the band. We polled our 
members. Over 60 percent of them had made investments in 
reliance on the rules. Like I said in my testimony, these are 
small companies providing big service in rural America, and 
this would hamper their ability to reach new customers that are 
within range of their towers.
    Mr. Doyle. Basically, it is your opinion that expanded 
license size will actually hurt the deployment of broadband in 
rural areas?
    Mr. Aiken. I believe so, and we have a proposal before the 
FCC that is backed by a large number of rural providers that 
would retain some small area license that would enable our 
providers to participate in the auction.
    Mr. Doyle. I want to talk about the lower C-band, too. In 
the lower C-band, several satellite providers have proposed 
freeing up a portion of the band to be auctioned for mobile 
broadband license service. However, a broad array of 
stakeholders have proposed spectrum-sharing rules in the rest 
of the band that would enable fixed, locked, wireless 
broadband. What are the merits of this proposal over the other 
proposals that would seek to transition the entire band to 
mobile broadband use? And to be honest, are these proposals 
even realistic?
    Mr. Aiken. Thank you for the question, Congressman.
    I think in this band we have a fantastic opportunity to 
enable gigabit fixed wireless in rural America and a way to do 
so consistent with everybody getting a win here. We are part of 
a much broader Broadband Access Coalition that includes, again, 
a broad array of rural interests. And we put forth a proposal 
that would effectively clear some of the spectrum for 5G, would 
put some rational protections in place for satellite earth 
stations, and would make the remainder of the band available 
for license point-to-multi-point fixed wireless. We believe 
this approach would have a significant impact of the 
availability of broadband in rural America.
    Mr. Doyle. Thank you.
    Ms. Coker Craig, your testimony and the story of your 
community is very compelling. And apparently, you have good 
barbeque down there, too, although Butterfield didn't share any 
of that with us.
    [Laughter.]
    But we have had other people from communities that have 
provisioned their own broadband infrastructure here to testify 
before us. It seems to me that every one of them seems to be 
happier with the service they provided themselves than any 
other available commercial option.
    Tell me what some of the advantages are of self-
provisioning.
    Ms. Coker Craig. Well, it was amazing the difference to be 
able to call if there was any problem or any problem with 
anything with the connection, to call and you talk with someone 
in Wilson who knew where Pinetops was. And the speed and the 
reliability of their services and technicians were amazing. 
They know us. They are our friends and neighbors. We could 
usually get things fixed sometimes within a couple of hours. 
Sometimes they could do it over the phone. But, if not, they 
would have a technician there sometimes in 30 minutes.
    And it was just a tremendous asset to a business. When you 
are operating a business, that time is money. And when you are 
having to wait for 2 and 3 days for a technician to come and 
fix your internet, it is well worth it to switch over to 
Greenlight.
    Mr. Doyle. Yes.
    Well, Madam Chair, I see my time is almost expired. So, I 
will yield back.
    Mrs. Blackburn. The gentleman yields back.
    The chairman of the full committee, Mr. Walden, is 
recognized for 5 minutes.
    Mr. Walden. Well, thank you, Madam Chair.
    And again, to our witnesses, thank you for being here. I 
thought I might put a photo up, or two, of Wallowa County, just 
so you can enjoy the home view.
    And while we are working on that, Ms. Word, this is Chief 
Joseph, a statue--they do a lot of bronze work there--with the 
Wallowas behind. And Chief Joseph Days are coming up the 
weekend after next. So, if you have got spare time and want to 
come out and enjoy Chief Joseph Days, we would be happy to host 
you. But you can see these photos, the wide-open spaces, some 
of the farming community out there, and then, another look with 
the Wallowas in the background.
    When I learned for the second year in a row rural 
healthcare facilities like yours were facing a 25-percent cut 
in their requested funding under the Rural Health Care Program, 
I encouraged the FCC to take a close look at the program in 
order to help telehealth facilities pay for the cost of this 
connectivity. I talked to the Chairman and his team.
    So, I was really pleased in June when the FCC increased the 
funding for the Rural Health Care Program by $171 million a 
year, increasing the cap for the program to $571 million, 
effective immediately. It is a 43-percent increase in funding. 
It represents what the funding level would have been today if 
the original $400 million cap that was established in 1997 had 
been adjusted for inflation.
    If the additional funding had not been provided, what would 
these cuts have meant to Wallowa Memorial Hospital from your 
perspective?
    Ms. Word. Thank you for the question.
    I think, simply, it would have been decreased access, 
increased travel time, inconvenience for patients. It is ones 
that aren't feeling well; travel is difficult. Family members 
are often taking time away off work as well. And then, 
increased cost to the patient and to the community to provide 
services or allow services out of town.
    Mr. Walden. In your testimony, you identified several 
barriers to expanding telehealth. You mentioned restrictions on 
Medicare reimbursements for remote patient monitoring, 
burdensome state licensing requirements, and the capital 
associated with developing and maintaining telehealth programs. 
Of these barriers, which do you think is most significant? What 
impacts you the most?
    Ms. Word. Because we are very patient-centered and patient-
focused, I think the biggest barrier is the remote monitoring 
or access for those remote, whether it be a remote clinic, 
hospital, so that we can service the patients.
    Mr. Walden. And are there additional barriers the way the 
current Rural Health Care Program is formulated by the FCC? 
Anything there we need to be aware of?
    Ms. Word. Not that I can think of off the top of my head.
    Mr. Walden. All right. When you mentioned that the nearest 
critical-access hospital after yours is 65 miles away, do you 
want to describe what that journey is like in the winter?
    Ms. Word. Well, if the roads are open, not snow and ice, it 
is a windy, two-lane highway. You are traveling with log 
trucks, potentially farm equipment, not so much in the winter 
probably. It is 65 miles, but it takes over an hour to make the 
journey.
    Mr. Walden. That is down a narrow, windy, two-lane road 
down into the river bottom and, then, up the canyons and out 
and around. It is tough territory. So, if you lose service, if 
the fiber gets severed, what happens then?
    Ms. Word. You have no connections. You are relying on your 
own internal services within the county, within the cities. And 
that is not unusual. We have lost all connection. Your 
electronic health record goes down, your phone communication. 
We do drills around this. We are prepared for it because, for 
us, it is a reality.
    Mr. Walden. And talk to me about the interconnectivity 
among the other providers in the community there, the clinic, 
pharmacy, some of those things.
    Ms. Word. Sure. We are really very fortunate in eastern 
Oregon and Wallowa County, especially that we have separate 
clinics, we have our hospital, but we really function together. 
If you came from the outside, you would think it was one 
entity. Some of these specialists, they may be initially 
contracted with a non-hospital-owned clinic. Yet, we can still 
use them for an inpatient in the hospital. The clinic will use 
services that we have set up in the hospital as well. Wallowa 
Valley Center for Wellness, mental health and behavioral 
health, has a great telemedicine program that benefits everyone 
as well.
    Mr. Walden. All right. My time is about expired, Madam 
Chair.
    Thank you. And thanks again for making the journey.
    Mrs. Blackburn. The chairman yields back.
    And, Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you very much.
    Mr. Butterfield has left, but I will tell a story behind 
his back, but don't tell him. Shortly after he got elected to 
Congress, he thought he was kind of a big deal, like a lot of 
us. And he was back in Wilson, right next to Pinetops, and he 
went into a diner. A number of women were there, and they knew 
him. They looked at him and they said, ``You know, that is 
pretty good you got elected. Someday you may amount to 
something. You may be mayor of Wilson.''
    [Laughter.]
    And it is that hometown commitment, actually, that is so 
wonderful about a lot of your testimony.
    Mr. Walden, just the description in those pictures, they 
are very evocative for so many of us in our rural areas.
    I just loved your testimony about how important it is to 
get that broadband there.
    Now there are two things. No. 1, I think, Madam Chair, it 
is a little premature for us to congratulate ourselves on what 
we have done for rural broadband because it kind of stinks in a 
lot of places. It really does.
    No. 2, what Congress has to do, first and foremost, is we 
have got to dedicate funds to the buildout of broadband. There 
is just no escaping that. It is just like we made a decision in 
this country in the thirties about electricity. There was no 
economic case to be made for our utility companies to build out 
electricity in rural America, none. But we made a decision 
here, our predecessors did, that there was a social case to be 
made for it because rural America has the kind of people like 
you are describing, like Mr. Walden is describing. And we need 
them.
    So, money is really going to be important. I just have to 
say this. All of us who are dedicated to our rural 
constituencies, unless we are going to put some money in there, 
it is not going to go there. So, that is No. 1.
    No. 2, how to do it? We have got to be flexible. That is 
why I really enjoyed your testimony, Ms. Coker Craig, because I 
live on a dirt road, an 8-mile dirt road, and we have got great 
broadband. It was local people created a nonprofit. I don't 
know how they managed to defy expectations, but they went up 
and down the roads and they got each of us to invest a little 
bit. And we get that kind of service that you are talking 
about.
    So, I want to start asking a few questions. I will start 
with you, Mr. Aiken. If we get the money--and that is what we 
need--how do we deploy it in a way that is flexible? Because 
some of those pictures I saw from Mr. Walden, we don't have 
those in Vermont. There is a lot of hills and valleys. And one 
size does not fit all. So, how could we, if we had the money, 
deploy it in a way where we don't micromanage how to do it in 
Pinetops versus Tennessee? Do you want to comment on that?
    Mr. Aiken. Sure. Thanks for the question, Congressman.
    We represent predominantly small businesses. We have a 
couple of dozen providers who are participating in the upcoming 
Connect America Fund Auction. But what I have heard from my 
members time and time again is that complicated applications 
and difficulty----
    Mr. Welch. Well, how do we make it simple, but accountable? 
I do think it has got to be done at a local level. Anybody 
else, comment on that? You did it in Pinetops, right?
    Ms. Coker Craig. We did.
    Mr. Welch. How did you do it?
    Ms. Coker Craig. Well, like I said, we worked with the city 
of Wilson. The only thing, we had that small window of time 
with the FCC ruling. That was the only way we were able to do 
it because the state legislature had said there would be no 
more expansion past the Wilson County line.
    Mr. Welch. OK. Anybody else want to comment on that? How do 
we have accountability if we deploy money, but flexibility? So, 
where a community is ready to go and they have got whatever it 
takes, we can get them going. Anyone?
    Mr. Aiken. I can take a stab at that, Congressman.
    I think accountability on the back end is important. I 
think we are comfortable with a reverse auction design like 
that which is included in the LIFT America Act. We think that a 
streamlined, but accountable application is important. That is 
one of the reasons why we think the principles in the BROADBAND 
ACCESS Act are so important.
    Mr. Welch. OK. Thank you.
    Ms. Word?
    I am going to yield back. I am out of time. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    I will say, we put $670 million in the omni, our U.S., for 
deployment, and $171 million at the FCC for rural healthcare.
    Mr. Lance, you are recognized, 5 minutes.
    Mr. Lance. Yes, thank you.
    That brings me to my questions regarding the additional 
funding that we put into our U.S. for a new loan and grant 
program for rural broadband.
    To Mr. Forde and Mr. Aiken, from your perspective in rural 
America, what is the best way this funding could be deployed in 
order to reach the most Americans in need with the amount of 
resources that the government has placed in that program?
    Mr. Forde. Certainly, focusing on those areas that are 
truly unserved to make sure that we take care of them first I 
think is very important, and, obviously, being technology-
neutral. We, of course, have our fiber networks. We deliver gig 
through high-frequency cable, and then, we use the fixed 
wireless tools to reach the last mile. So, having all those 
things work.
    And I think there are some unique broadband grant programs 
out there. The State of Minnesota has a program where you get 
more points if you put more private capital into it. There is a 
challenge process to make sure that there is no overbuilding 
taking place, and a lot of unique things with that program that 
we work with that really help to find those areas that are 
truly unserved that need it most, and we are not spending too 
many federal dollars on those.
    Mr. Lance. Do you know, do other states intend to proceed 
the way Minnesota has proceeded, as you have outlined it?
    Mr. Forde. Not currently in our Midco footprint. Kansas, I 
believe, has looked at it a little bit, but they are in the 
initial stages of that process.
    Mr. Lance. Thank you.
    Mr. Aiken?
    Mr. Aiken. Yes, I would echo what Mr. Forde said, that a 
focus on unserved areas is critical. Ensuring that private 
capital isn't overbuilt by government subsidies is also 
critical. And we also believe that there should be a focus on 
cost-effectiveness in the program. We have a limited number of 
dollars. We have a lot of people to serve. And we need that 
money to go as far as possible.
    Mr. Lance. There is, of course, a difference between 
underserved and unserved. Mr. Aiken, from your expertise, how 
many Americans are completely unserved?
    Mr. Aiken. The number is smaller than those that are 
underserved. I think the FCC counts 24 million as not having 
access to advanced telecommunications capability. That number 
includes folks who have access to less than 25/3 broadband. But 
our members are focused on providing that high-speed service 
that rural Americans need.
    Mr. Lance. Thank you.
    Would anyone else on the panel like to comment?
    Mr. Stroup. Yes, I would like to comment a minute.
    Mr. Lance. Yes, of course.
    Mr. Stroup. I would like to emphasize that last year alone 
two of our member companies, ViaSat and EchoStar, launched 
satellites with the advanced technologies that I talked about 
with 25/3 FCC-defined broadband speeds. Both of those companies 
have announced plans for their next satellites. And I talked 
earlier about the LEO systems that have been announced. So, our 
members are not looking for subsidies in order to provide these 
services. They are moving forward with launching this capacity, 
and certainly, as I noted earlier in my testimony, provide 
coverage across the entire country. So, certainly the industry 
is moving forward with launching additional capacity to provide 
service to all areas of the country without any subsidies.
    Mr. Lance. Yes. Thank you.
    I live in a State, New Jersey, that is the most densely 
populated in the nation. We are well served, by and large, but 
I want to assure the panel that I will continue to work on this 
issue, as the sponsor of one of the pieces of legislation that 
is important for this area.
    And to those from the great State of Tennessee, my wife and 
I met in law school at Vanderbilt, and I have a great affection 
for your wonderful state, not only because the chairman is from 
that state, but also from personal experience.
    I yield back a minute, Chairman.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Loebsack, you are recognized.
    Mr. Loebsack. Thank you, Madam Chair. I do, first, want to 
thank the Chair and the ranking member for holding this 
important meeting today. It has been great testimony.
    And thanks to all of you on the panel today for your 
testimony and for answering the questions.
    It is clearly no secret to those of us on the committee 
here that I do like to talk about rural broadband. I am from 
Iowa. I have 24 counties in Iowa. It is not quite a fourth of 
the State geographically, but it is quite a bit. And then, how 
to build out capacity in Iowa and the rest of rural America. At 
one point, the Chair even called me ``Broadband Loebsack,'' and 
that is a flag that I am very happy to fly while I am on this 
committee, while I am in the Congress.
    In my district, as many of you know, farming is a huge part 
of the economy. I thank Mr. May and John Deere for all the 
great work that those folks do with respect to the farming 
community in Iowa and around the country, and, indeed, around 
the world for John Deere.
    Farmers across America are facing a lot of challenges right 
now. We don't need to talk about trade, but there are a lot of 
things that are facing these farmers right now, a lot of 
challenges. It makes it more important than ever I think for 
our communities in the rural areas and the agricultural 
communities to be as efficient and productive as possible.
    To help lend our farmers a hand, I joined with 
Representative Latta in introducing the Precision Agriculture 
Connectivity Act. I really appreciate the fact that you folks 
were behind that, obviously, Mr. May. That bill, as was stated, 
as you know, would create a task force to help the FCC figure 
out how to deploy broadband on agricultural land to promote 
more precise farming techniques.
    Mr. May, I would just like to ask you, from your company's 
perspective--you did mention this already a little bit--what 
would having robust broad access mean to so many of your 
customers who really need precise and efficient farming 
equipment? What does this technology mean for agricultural 
productivity as well?
    Mr. May. Sure. Thank you for the question.
    Maybe I will give you a couple of examples of products that 
will unlock a lot of productivity and, frankly, more 
sustainability within agriculture. No. 1, I will go back to the 
sixties and where we saw a three times increase in productivity 
because of technology introduced at that time. That journey 
continues. Today, what is driving that journey is access to 
machines in the farm, on the farm field.
    For example, we have the ability today to stream computer-
generated prescriptions directly to a planter based on the 
field conditions in that field and have the planter plant in 
the most optimum way. When the farmer is in combining, picking 
the corn in the field, we are sensing the environment that that 
combine is in and connecting back to the cloud to stream 
recommendations on how to optimize that combine, based on 
exactly what it is sensing within that field.
    Also, when we have a machine go down, you know what that 
means to a farmer. When that machine stops, it is dollars 
flowing out the window of the cab, and we need to get the 
machine up fast. With internet connection, we can connect 
remotely directly to that machine and diagnose the problem that 
is happening and get them back up and running quickly.
    So, we believe this phase of internet-based agriculture is 
going to unlock tremendous value and productivity and 
sustainability.
    Mr. Loebsack. Right, and feed America and feed the world.
    Mr. May. Absolutely.
    Mr. Lance. Just briefly, last September I went to visit a 
farmer in one part of my district. I got there and he was 
getting the corn in. And I knew how important that time was to 
him. So, I said, ``Listen, we don't have to go in your house 
for an hour and talk about the issues. Do you mind if I get in 
the cab with you?'' And that is what we did to bring the 
harvest in. And he was talking to me about the technology. It 
was really quite amazing.
    But this particular bill, I am proud. I have worked with 
Congressman Latta on that. We have got to make sure that we 
have the information, so that these machines can operate as 
effectively as possible.
    Are there any other things you would like to add that we 
could be doing along those lines?
    Mr. May. First of all, thank you for your work on that. We 
believe that that will bring a significant amount of value to 
agriculture across the United States.
    I think one of the other things that could be helpful is 
maybe a joint study between the FCC and the USDA----
    Mr. Loebsack. Right.
    Mr. May [continuing]. To truly understand where do we have 
the issues, where it is unserved, as was mentioned----
    Mr. Loebsack. That is right.
    Mr. May [continuing]. And underserved, so that we can 
attack these problem areas directly.
    Mr. Loebsack. And that is connected to my other question, 
actually, too. I am probably just going to have to ask this 
question for the record of you, Mr. Aiken, but it has to do 
with mapping, obviously. I am very happy to get my mapping bill 
through.
    But I do have a letter, Madam Chair, from Chariton Valley 
Electric Cooperative. If I could put that in the record with 
unanimous consent?
    Mrs. Blackburn. Without objection.
    Mr. Loebsack. Thank you so much.
    [The information appears at the conclusion of the hearing.]
    Mr. Loebsack. And then, I will just submit a question to 
you, Mr. Aiken, for the record.
    Mr. Loebsack. And I yield back. Thank you, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    And next week, he will have the opportunity to ask the FCC 
about doing that study, and I am sure he will.
    Mr. Latta, you are recognized for 5 minutes.
    Mr. Latta. Thank you, Madam Chair, and thanks very much for 
having this hearing today. It is very, very needed.
    I represent the largest farming and producing district in 
the State of Ohio. It is important to our agricultural 
producers out here to have this technology.
    I have served and serve as the Co-Chair of the Rural 
Broadband Caucus and also Co-Chair of the Rural 
Telecommunications Working Group. We believe that it is 
absolutely important that we get the broadband out to our rural 
areas of our country. And it is not only the ag side, but from 
the testimony we have heard from the other witnesses, if you 
can't operate a business or you can't operate a hospital, you 
can't do certain things out there if you don't have that 
technology. So, it is absolutely important that we have that.
    My area is a little bit different from the chairman of the 
full committee, where you saw the mountains in the background. 
If you look at my district, it is probably as flat as your 
table that you are sitting at. But we grow things and we are 
very productive there.
    But if I could ask my first question, Mr. May, does it 
matter to you what type of technology is used to deliver that 
broadband service to connect agricultural producers, customers, 
and vendors across America, as long as the service is safe, 
affordable, and effective at meeting the needs of those users?
    Mr. May. There are lots of technologies that can be applied 
to make agriculture more productive. Frankly, we think each one 
of them has a place and we are open to all of them, whether you 
talk guidance, GPS systems, using satellite-based networks, to 
guide vehicles in the field within centimeters, that plays a 
critical role. Internet connections and the ability to stream 
large quantities of data is also significant. For us, we think 
there are several technologies that can be leveraged within 
agriculture, but, certainly, internet connectivity is critical 
from the data side of agriculture.
    Mr. Latta. What would you say especially on the GPS and 
being able to be within centimeters? About 2 years ago, I was 
out in the southwest part of my district. What we were doing at 
that time, they were showing how--my mom grew up on a farm. My 
grandfather used horses back in the thirties. I saw in your 
testimony that Deere has been around now for 181 years. My 
wife's family has been on the same farm in northwest Ohio for 
185 years.
    Mr. May. Excellent.
    Mr. Latta. But that day that we were out, they were putting 
in fertilizer in furrows to keep from having runoff or anything 
like that. But in the spring, when they were going to go out 
and plant that corn, they were going to be able to put it 
within an inch of where that furrow was. That is what that 
technology does. So, we appreciate that.
    Mr. May. Absolutely.
    Mr. Latta. Mr. Stroup and Mr. Forde, if I can ask you, will 
both of you provide examples of how your industries are working 
to promote rural broadband for precision agriculture, and what 
are some of those broadband solutions?
    Mr. Stroup. I would like to start by noting that precision 
begins with GPS, as you noted. It is important to recognize 
that GPS is provided via satellite. Also, precision agriculture 
involves earth observation, weather information which is 
gathered via satellite, and the ability to take the imagery and 
refresh it on a daily basis, all one of the capabilities of the 
satellite industry.
    But, to get to the communications aspect of it, the 
addition of the capacity that we have been talking about is an 
important aspect of what the satellite industry is doing. That, 
in combination with flat-panel antenna technology, which 
provides the ability to build it into every tractor/combine and 
provide continuous connectivity, because, ultimately, one of 
the great advantages of the satellite industry is ubiquitous 
coverage. So, we have complete coverage of rural America. The 
important thing that we are doing in terms of the capacity is 
adding additional satellites and the high technology that we 
have talked about.
    Mr. Latta. Thank you.
    Mr. Forde, I have got about 49 seconds, if you can answer 
that?
    Mr. Forde. Absolutely. One of the greatest examples is we 
have a small group of elevators, and the farmers in that region 
are now able to use Midco fiber running to some of those 
elevators and connecting that group of elevators through fixed 
wireless technology. So, the farmers are able to tell and 
direct their trucks when they are dumping out their grain and 
instantly be able to see where their grain was going in, and 
being able to see those records immediately online. So, I think 
that tool has been great for that, that group of elevators and 
the farmers in the area to make sure they know how much grain 
was going and how much was unloaded.
    Additionally, we have grain dryers. Of course, drying corn 
takes a tremendous amount of stuff. You have folks and farmers 
that are monitoring grain dryers almost 24 hours a day to keep 
those things running. Well, fixed wireless technology allows 
them to do some of that from their easy chair in their homes 
and spend more time with their families
    Mr. Latta. Thank you very much. Madam Chair, my time is 
expired.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, you are recognized.
    Mr. McNerney. I thank the chairwoman and I thank the 
panelists.
    Ms. Craig, state and local governments in California are 
doing important work right now with private industry to build 
out broadband in the state. I believe our state is leading the 
Nation when it comes to forward-leading policies in this area. 
But I am worried about calls to preempt state and local 
government in the name of streamlining wireless siting 
policies. In fact, California just rejected such a proposal on 
the state level. What we need, I believe, instead, is industry 
and cities working together to meet individual constituents' 
needs like what just happened in San Jose. Do you think the 
Federal streamlining of local government siting policy will 
make meaningful progress for bringing high-speed fiber to 
unserved and underserved areas?
    Ms. Coker Craig. Well, I think if that streamlining would 
give us the flexibility in local areas to work with our 
partners--and like I said, our partnership with Wilson was 
well-established. To me, it was a natural partnership. We 
trusted them. We knew that they were being fiscally responsible 
with this network. So, if that streamlining would simplify and 
give us the flexibility that we need, because rural areas are 
very unique. Some things may work for one area, but not in 
another.
    Mr. McNerney. Well, that is the point, isn't it, that you 
don't want a uniform federal policy that preempts local/state 
policies in some name of streamlining?
    Ms. Coker Craig. Right, but we also need to get past those 
barriers, those barriers that we had, and our response was the 
state government.
    Mr. McNerney. Well, thanks. Rather than fighting against 
local governments, I think local governments and industry could 
work together to find meaningful solutions. The Broadband 
Finance, Investment, and Innovation Act that Congress Lujan 
introduced--and I am cosponsor of--would help public/private 
partnerships gain access to capital for deploying high-speed 
broadband. I think you could make a real difference in 
districts like mine and others. Do you think the use of PPPs, 
as this legislation envisions, would allow Federal Government 
to work constructively with local governments?
    Ms. Coker Craig. It sounds like it would. I am not terribly 
well-versed on that legislation, but it sounds like it would.
    Mr. McNerney. OK. Thank you. I appreciate that.
    Mr. May, for some time now I have been raising concerns 
about cybersecurity and internet-connected devices. The LIFT 
America Act, of which I am a cosponsor, would acknowledge these 
concerns by requiring that all broadband projects funded by the 
Act would have to work to meet network and security 
specifications. What might cybersecurity vulnerabilities mean 
to farmers who are using advanced agricultural technology?
    Mr. May. Farmers today that are utilizing these advanced 
technologies are streaming large quantities of data, not only 
to their own farm, but to their trusted advisors to help them 
make better decisions.
    John Deere has been very transparent in our role to make 
sure that that data is as secure as possible, it is accessible, 
and it is easy to share. We have also tried to work with Farm 
Bureaus to develop more standards around what sort of security 
protocols should be in place. We believe that the security of 
data is critical and we support continuing to invest in that.
    Mr. McNerney. But what risks do farmers have, the ones that 
are actually using the technology?
    Mr. May. The risk the farmer could have is if their data 
gets in the hands of somebody they didn't intend it to. So, 
their yield data or how they planted the fields, what seed they 
used, that is their IP, and if that got in the hands of, I 
planted this hybrid, I sprayed with this sort of application, 
and I created a yield 10 percent higher than you, that is IP. 
And if that were to get in the hands of somebody else, then it 
is a loss to the farmer.
    Mr. McNerney. Thank you.
    Ms. Word, in your testimony you point out that fewer than 
50 percent of households in the bottom income quintile use 
internet at home, and that narrowing this divide would become 
even more important as healthcare moves to a value-based 
system. Can you expand on your testimony and talk about the 
health implications if lower-income middle Americans are unable 
to afford access to broadband at home?
    Ms. Word. Sure. Thank you for the question.
    Those patients at that lower socioeconomic status are often 
some of the less healthy patients or they don't access 
healthcare as frequently. So, there are ways that we could do 
in-home monitoring, whether it is video, phone, email, 
monitoring of their health conditions that would prevent 
readmissions maybe to the hospital, improve their health, get 
them regular visits with their doctor when maybe they can't 
even afford to drive in to the clinic.
    Mr. McNerney. Thank you, Madam Chairman. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Guthrie, 5 minutes.
    Mr. Guthrie. Thank you, Madam Chairwoman, for holding this 
meeting.
    I would like to start by thanking my Co-Chair from 
California, Doris Matsui. We have worked on the Spectrum Caucus 
together. It seems like every meeting we have here we talk 
about spectrum, but it is so important.
    I just want to point out, in the RAY BAUM Act, there was 
also just nuances of technology policy. It is amazing. We had 
actually put in there the Spectrum Auction Deposits Act, just 
so they could deposit bank deposits for selling of spectrum. 
That was asked for by Chairman Pai. And the chairwoman was 
great to work with us and have this in the mark, so that we 
could move forward. And I appreciate you doing that.
    I am also pleased with the Commission's work on midband, 
licensed and unlicensed bands, that can help us keep the U.S. 
on the cutting edge of 5G, rather than letting China or any 
other person try to beat us to that.
    Mr. Forde--and also Mr. Aiken, I might ask you to comment 
on the question for Mr. Forde, but if you would comment? 
Starting with the spectrum question, I know that you are trying 
to provide service for unserved areas by using fixed wireless 
technology. And you say in your testimony that you need access 
to more spectrum in order to accomplish that. Charter is doing 
similar things in Kentucky. So, thanks for your efforts.
    And for Mr. Forde and Mr. Aiken, how much spectrum do you 
think is needed for fixed wireless and what would be the 
results for consumers? And what more can we do on this front? 
We can start with Mr. Forde and, then, Mr. Aiken.
    Mr. Forde. Yes, certainly, access to more spectrum, most 
importantly, the type of spectrum that works best for our 
customers and our people in rural areas. We need to make sure 
that the spectrum is offered, provides interference protection 
out there. I know the C-band has been talked a little bit about 
today, but we are, of course, an existing cable television 
provider and we use that C-band to provide television service 
to tens of thousands of customers across all the states that we 
serve. And that is the only option that we have. So, if we were 
to look at that band for fixed wireless, we need to make sure 
that that is also protected.
    And one of the bands that isn't being used as much in our 
area is the 2.5, the educational broadband. One of the reasons 
we really like that spectrum is because it is able to go 
penetrate dense forests, tree lines, things like that, and get 
through those obstacles. Obviously, it does have a certain 
educational benefit. I live in a very rural area. My kids go to 
a school out in the country 5 miles from my house. And I am 
amazed, even at their young age, how much work that is destined 
on having that good, reliable internet connection.
    So, yes, I think we need more spectrum in all these areas 
to accomplish it, but let's make sure it works for everybody.
    Mr. Guthrie. Thank you.
    Mr. Aiken?
    Mr. Aiken. Thanks for the question, Congressman.
    Yes, I would echo what Mr. Forde said. We are looking at a 
lot of midband spectrum, so the same sort of spectrum bands 
that Mr. Forde mentioned, the EBS spectrum at 2.5 gigahertz, 
the 3.5 gigahertz spectrum, the CBRS band which the FCC is 
currently considering, as well as the 3.7 to 4.2 spectrum band. 
That midband spectrum has great characteristics to be able to 
go a long ways and carry a significant amount of bandwidth, 
which is perfect for radios that have to go many miles to 
houses in rural America.
    Mr. Guthrie. Thanks.
    Another concern, I have a district that could be a little 
bit of--Bob Latta just said his is as flat as a table, some of 
the best farmland in the country. And I have some that doesn't 
have the mountains quite that my friend from Oregon has, but 
beautiful mountains and lakes, and Mammoth Cave, if anybody 
wants to visit, is there as well. So, it is a beautiful place, 
but it is rural and, also, it is suburban and urban.
    I live in Bowling Green, which is kind of a boom, tied in 
with the work our chairwoman has done in Middleton, such a boom 
town. We are kind of tied in with that. I am hour from 
Nashville.
    If you look at mapping, so I am talking about if you look 
at mine, you would say Bowling Green is covered with broadband. 
And we have some friends out here from Connected Nation which 
is a local hometown group that does the mapping. But it depends 
on where you live. I have very rural counties that is exactly 
what we are talking about. But, even where I live, some people 
won't develop; they can't move forward because people don't 
want to buy a home that doesn't have broadband access moving 
forward. So, just in mapping, getting more specific in mapping, 
I think we are talking about it is just too broad to say that 
one county is covered or not.
    My question is for the panel. I didn't leave you much time. 
But what recommendation do you have to improve the granularity 
and accuracy of the data collected? And what recommendations do 
you have to improve it? Should NTIA coordinate with the 
Commission or are there other ideas about giving it to NTIA 
solely? Anybody? I only have two seconds, so if one of you 
wants to get that? Just making mapping better, NTIA.
    Mr. Stroup. Certainly, I would start with ensuring that the 
information is up-to-date. We have recognized that, given the 
advances in the satellite industry, the fact that we do provide 
25/3 coverage is not included in the current map.
    And one other technology that I would acknowledge that I 
think will be useful in terms of the broadband mapping is 
technology that is being deployed that allows for RF mapping 
from space. Ultimately, I would recommend that that company's 
technology--they are launching their first three satellites 
this year--be considered to be able to identify where there is 
actually a signal, rather than just identification of hopes 
that there is a signal.
    Mr. Guthrie. Thank you. We are out of time. I yield back.
    Mrs. Blackburn. Ms. Matsui, you are recognized.
    Ms. Matsui. Thank you very much, Madam Chairman.
    We talked about spectrum is absolutely necessary to meet 
the coverage requirements of rural broadband networks. In 2004, 
Congress created the Spectrum Relocation Fund to assist Federal 
agencies relocating or sharing spectrum for wireless broadband 
use. And in 2015, Congress made improvements to the SRF by 
allowing agencies to use SRF funds for engineering research and 
development. But current law limits how much of these funds can 
be used by agencies to fund the research and related activities 
necessary to potentially reallocate or share their spectrum. 
Last month, my spectrum partner, Congressman Guthrie, and I, 
along with Senators Wicker and Schatz, introduced the SPECTRUM 
NOW Act to fix this problem. Specifically, the framework of the 
SPECTRUM NOW Act could provide a pathway for NTIA and DoD to 
make additional 100 megahertz of spectrum available in the 3.4 
gigahertz band.
    Mr. Aiken, what potential does a 3.4 gigahertz band have 
for WISP networks, and how could the SPECTRUM NOW Act help meet 
the growing demand for networks across rural America?
    Mr. Aiken. Thank you, Congresswoman, and thank you for your 
leadership on this issue. We are incredibly supportive of that 
legislation, and it could make a real difference in rural 
broadbands, particularly if the FCC gets the rules right on the 
3.5 gigahertz or CBRS rulemaking, because that would allow 
these fixed wireless radios to just simply have a software 
upgrade and be able to utilize the spectrum in that band as 
well.
    Ms. Matsui. Right. OK. Thank you.
    Narrowband IoT networks are particularly useful for long-
range, low-power applications. Specifically, these networks 
improve capacity, spectrum efficiency, and power consumption 
levels of user devices. Narrowband IoT networks have potential 
both nationwide and particularly for rural coverage. These 
networks can co-exist with commercial mobile networks, and 
their propagation characteristics provide better range and 
reduce coverage costs for consumers in both rural areas and 
across the country.
    The entire panel, what potential benefits do narrowband IoT 
networks have in rural areas from a spectrum efficiency, cost, 
and deployment perspective?
    Mr. Stroup, would you like to start?
    Mr. Stroup. Certainly. I think, as you noted, narrowband 
signals are more spectrum-efficient and you can put them in 
smaller allocations. Companies like Iridium, which is a 
satellite-based company that has been providing IoT services in 
rural America for some time. So, those services are already 
deployed. They tend to be more cost-effective just because they 
do not have the same power requirements, either, that broadband 
systems do.
    Ms. Matsui. Thank you.
    Mr. Forde?
    Mr. Forde. We would be happy to get back to you on that.
    Ms. Matsui. Oh, certainly.
    Ms. Matsui. Mr. Aiken?
    Mr. Aiken. Sure. We generally view those networks as 
incredibly complementary to fixed wireless networks. It enables 
a lot of connectivity on farms that have a lot of benefit to 
precision agriculture efforts. We view those networks as 
complementary, and we see customers of our members who are 
farmers utilize both.
    Ms. Matsui. OK. Fine.
    Mr. May?
    Mr. May. That technology we believe will play a role in 
machine-to-machine communication----
    Ms. Matsui. Yes.
    Mr. May [continuing]. But very limited capability if you 
have to upload data to the cloud. So, where we are sharing maps 
within a field between planters, it makes a lot of sense. But 
if we need to transfer data to or from that machine, it has 
limited capability.
    Ms. Matsui. OK. Fine.
    Ms. Word. I will claim a little bit of ignorance, being a 
healthcare practitioner and not as much on the technology side. 
But I can say, with our diverse terrain in our county, I think 
we take advantage of just about every opportunity that is out 
there.
    Ms. Matsui. I am sure.
    Ms. Word. Certain technologies are going to work better in 
different areas.
    Ms. Matsui. Absolutely.
    Ms. Craig?
    Ms. Coker Craig. I will also claim ignorance in this, 
proudly. But it sounds to me like it is just another option, 
and it points again to the flexibility that small communities 
need to have in working with whatever tools they can get.
    Ms. Matsui. OK. I don't have much time, but I want to ask 
the question on the C-band, about the particular clearing 
mechanism that could be used to allow additional terrestrial 
use in the 3.7-4.2 gigahertz band. In particular, NRPM has 
sought comment on whether market-based or the auction approach 
could be utilized to clear the spectrum that could, then, be 
made available for terrestrial mobile use.
    Mr. Stroup, I am interested in how a voluntary market-based 
mechanism would function for the very services currently being 
utilized in the C-band.
    Mr. Stroup. I think one of the most important things to 
keep in mind with respect to the C-band is just how heavily 
used it is. As part of the NOI process that the FCC went 
through, there were a number of users that came forward, and 
there are thousands of earth stations serving over 120 million 
people for video distribution services. Ultimately, if the FCC 
does decide that they are going to make any of that spectrum 
available, a market-based approach where they have an 
opportunity to work with a customer base, meaning the satellite 
companies have an opportunity to work with the existing 
customer base, is more likely to achieve the goals in the short 
term.
    Ms. Matsui. OK. Thank you very much, and I have run out of 
time. Thank you very much.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Olson, you are recognized.
    Mr. Olson. I thank the Chair.
    And welcome to our six witnesses. Not to mislead you all, 
Texas 22 is two-thirds the suburbs of Houston, Texas, and one-
third rural. That means corn, milo, cotton, and cattle. Our 
smallest farms and ranches are doing just fine. They have the 
broadband access that greater Houston has, but that access can 
disappear in a few hours in a natural disaster, like Hurricane 
Harvey.
    We learned a lot from Hurricane Ike that hit us in 2008. We 
bury our lines deep in the soil, so that stayed up a lot. We 
still lost some connectivity during the storm. And as you know, 
the most precious, lifesaving commodity in a disaster is 
information. We found out, too, our process for permits needs 
to be streamlined to provide that lifeline.
    And that is why I introduced H.R. 4045, the Connecting 
Communities Post Disasters Act. This legislation allows Federal 
disaster areas to be exempt from the National Environmental 
Policy Act and the Historical Preservation Act. That just lets 
communities get going quickly to rebuild.
    Madam Chairman, I would like to ask unanimous consent to 
introduce two letters of support for my legislation, one from 
the NTCA and one from the WIA.
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Olson. Mr. Stroup, a question for you, sir. What are 
your main considerations from your perspective in the industry 
that Federal agencies can streamline disaster requirements and 
just streamline process for permits overall, especially in 
disasters? Any advice for Federal Government to act, so we 
don't have the problems we had with Hurricane Harvey?
    Mr. Stroup. Certainly, the satellite industry provides 
important capability in hurricane and natural disaster events 
because we have our infrastructure in the sky. From a 
permitting perspective, just the opportunity to be able to get 
our earth stations located, if they are not already in place, 
and work with existing customers, like the cellular industry, 
in order to be able to get their portable systems up and 
running. So, our infrastructure we don't need permitting with 
respect to that. It is the earth stations where we can benefit 
from a streamlined process.
    Mr. Olson. As a side note, DIRECTV addition to our home was 
basically weather radar. Without the TV, guess what is going to 
hit us in about 10 minutes? A big, nasty thunderstorm. So, 
thank you for that.
    My next question is for you, Mr. May. I saw the third 
generation of agriculture revolution in northwest Fort Bend 
County a few years ago. The farmer was not a farmer. He was 
what I call a manager of farm technology. He had this massive, 
huge John Deere tractor, a big, self-contained cockpit, air 
conditioning. It had a little radio, a satellite radio. The 
tractor was driving itself. What made that so special is he was 
putting every seed down perfectly, the same distance apart, the 
same depth, making all the turns. And so, that is exciting.
    You talked about, also, 4G. It is just the fourth 
agricultural revolution which uses artificial intelligence and 
machine learning to allow farmers to be more productive, be 
better farmers. Can you discuss the benefits of AI in the 
agricultural sector?
    Mr. May. Absolutely. We are really excited. We call this 
the fourth generation, if you will, of farming. The new 
technologies that are available to us are going to bring--the 
way I like to describe it is, today, a farmer, that farmer 
still relies heavily on his eyes for vision to see what is 
happening in the field. He relies on the 30 years of knowledge 
he has in head. And then, he makes adjustments with his fingers 
on the computer to optimize the machine. Computer vision, 
artificial intelligence, and robotics are going to help make 
that farmer even more better.
    We recently acquired a company called Blue River that is 
focused on eliminating up to 90 percent of chemicals that are 
used in the field by only spraying the weeds that are located 
within the fields. So, it is a huge advantage to productivity 
and, more importantly, sustainability.
    Mr. Olson. Thank you. I have 18 seconds left. So, I would 
like to offer my help to you, Mrs. Coker Craig, the whole town 
of Pinetops, North Carolina. My dear friend, Mr. Butterfield, 
talked about having barbeque at Abrams. With all due respect, 
ma'am, if you want the best barbeque in America, that is in 
Texas, Texas barbeque.
    [Laughter.]
    I offer you to come to either Killen's in Pearland, Texas, 
or The Swinging Door in Fort Bend County to have the best 
barbeque in America.
    I yield back.
    Mrs. Blackburn. And I will challenge that.
    [Laughter.]
    Anybody ever heard of Memphis and the barbeque competition?
    [Laughter.]
    All right, Ms. Eshoo, 5 minutes.
    Ms. Eshoo. Well, I can't recommend a barbeque in Silicon 
Valley, but----
    [Laughter.]
    Thank you, Madam Chairwoman, for having this. This is a 
very important hearing. When at least a third of our country is 
either underserved or not served in the second decade of the 
21st century, that is a major issue for our country. Our 
Founding Fathers knew that, to be a united country, that 
Americans needed a nationwide communication system. And so, 
this is a very important responsibility that we have.
    I want to thank the witnesses. Each one of you I think has 
been excellent. And you have touched, in a deep and broad way, 
either what your association members are doing, what your 
companies are doing, what is happening in healthcare, and what 
is happening in municipalities.
    I want to thank the chairwoman for, in her opening 
statement, making a positive comment about the dig-once policy 
that was in the RAY BAUM legislation. It is sensible, dig once. 
I don't know why no one ever thought of it before we did it. I 
guess it was, as my grandmother used to say, the most uncommon 
of the senses is common sense. But, at any rate, we got that 
one done.
    Now, at the same time, she was critical of the Community 
Broadband Act, and that undermines state legislatures. Now I 
had very purposefully introduced that legislation because I 
think it is important to examine what is standing in the way, 
why are we not making headway, especially in rural areas. And I 
have that, too, in my district. Imagine, in Silicon Valley 
there are people that are either underserved or have no service 
whatsoever. I think most people would be stunned to realize 
that.
    There are today about 20 states that have outright 
prohibitions or bans relative to municipal broadband. Now I 
think that these state legislatures are undermining local 
municipalities from coming up with their own solutions. I come 
from local government, like you, Ms. Craig, and I really have a 
reverence for local government. I prefer a bottom-up than a 
top-down in many cases. Now there are some cases where I 
believe a national umbrella is very important relative to 
Federal policy for our country.
    I want to ask you, Ms. Craig, why do you think anyone would 
do that? It has been proven to be effective. Cities like 
Chattanooga and Wilson were stopped from deploying high-speed 
broadband access to people who want it. Now there is a whole 
variety of reasons that we can stitch together why we are where 
we are, one-third of the country. But who did this in your 
state?
    Ms. Coker Craig. Well, the primary----
    Ms. Eshoo. Who are the interests? Who are the interests 
that went to the state legislature to make sure that this 
access was banned?
    Ms. Coker Craig. My understanding is it was the big telecom 
industry.
    Ms. Eshoo. You got it.
    Ms. Coker Craig. It was the large----
    Ms. Eshoo. That is my softball or hardball question to you.
    So, I think we need to put the facts on the table. And that 
is that the very large interests, very large money holds sway, 
and this is holding back local communities from creating a 
choice. In most cases, it is much cheaper, too. So, that is 
what is happening in the country. If people want to stay with, 
stand with their state legislature for especially screwing 
their local communities, so be it, but that is what is 
happening. That is what is happening, and that is a very big 
thing in our country, especially because one-third of the 
country is not getting what they need.
    I want to ask the panel--well, I don't have enough time. 
So, I will put that question to the full panel. Your single one 
best idea on how we can advance? I will put that in writing and 
look forward to your response.
    Thank you for being here today. I think you are all part of 
the solution.
    Ms. Eshoo. Again, I thank the chairwoman for having this 
hearing.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Johnson, you are recognized for 5 minutes.
    Mr. Johnson. Thank you, Madam Chairman.
    And thanks to our panel for joining us today.
    I represent a very rural part of the country, the entire 
eastern flank of the State of Ohio, all along the Ohio River. 
Broadband access is one of my top priorities. We must figure 
this out. A one-size solution doesn't work everywhere in the 
country. And the digital rural divide is very, very real. We 
are losing a tremendous amount of intellectual capital from 
young people to entrepreneurs, to you name it, kids that can't 
do their homework, businesses that won't come into a rural area 
because they can't get access to the internet to connect with 
their customers, their suppliers, manage their employees. There 
is a host of reasons why this is somewhat urgent, I would even 
say in many cases desperate, situation for economic 
development.
    And some people think that it is a pie-in-the-sky luxury to 
have access to high-speed internet, and that is simply not 
true. In a digitized world that we live in today, where we do 
business across the oceans like we used to do business across 
town, you have got to have access to the internet. And I think 
that starts with being able to accurately identify those areas 
that are unserved and underserved. And that has been a 
complicated, and yet, inadequate effort up until now.
    That is why I was glad to introduce the MAPPING NOW Act, 
reasserting NTIA's authority to go do this. I am also pleased 
that the discussion draft to reauthorize NTIA tasks the 
administration with facilitating more accurate granular maps of 
broadband coverage, so that we can get on with this process.
    Mr. Aiken and Mr. Stroup, Administrator Redl recently 
stated in his testimony before the Senate Commerce Committee 
that ``NTIA has long been a leader in gathering and analyzing 
broadband adoption and data, and on May 30th, 2018, NTIA 
published a Request for Comment to determine the most efficient 
path forward.''
    Gentlemen, could you offer your thoughts as to what NTIA 
should consider when thinking about how to get the most 
accurate and reliable data to properly inform broadband 
investment decisions? I don't think it is rocket science, and I 
am really frustrated with the length of time and the lack of 
progress.
    Mr. Aiken, let's go with you first; then, we will come down 
to Mr. Stroup.
    Mr. Aiken. Sure. Thank you, Congressman.
    We are actively engaged with NTIA on its rulemaking on 
mapping efforts and appreciate their work on this issue.
    We share the frustration at the lack of good data out there 
on broadband deployment. It means that folks who might be 
eligible for the Connect America Fund aren't. And there are a 
host of other problems that you accurately identified.
    One of the things that we think we can potentially do is 
move, particularly for a fixed wireless perspective, to a 
polygon method of characterizing deployment. That is something 
that we think we can do without unduly burdening our smallest 
members. Our association is made up of mom-and-pop companies. 
So, regulatory burden is a pretty significant concern. But we 
are actively working towards finding solutions that will work 
both for our members and for the data needs of our country.
     Mr. Johnson. Mr. Stroup?
    Mr. Stroup. We also have engaged with NTIA and encouraged 
them to take advantage or to reflect the most up-to-date 
capabilities, as I note with respect to the satellite industry, 
the 25/3 capabilities. And also, the point that I had made 
earlier about utilizing new technologies to be able to do RF 
mapping, to be able to determine where there is, in fact, a 
signal.
    Mr. Johnson. Sure. Well, like I have said, I don't think it 
is rocket science, but guess what? Even if it is a rocket 
science, we have got rocket science in this country.
    [Laughter.]
    We ought to be able to figure this out, and it ought not to 
be this dadgum complicated.
    But, with that, Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Brooks, you are recognized for 5 minutes.
    Mrs. Brooks. Thank you, Madam Chairwoman, and thank you so 
much for holding this really important hearing.
    And thank you all. I am sorry some of us have been going 
back and forth between other hearings.
    But this is critically important. I represent Indianapolis 
suburbs and rural communities in central Indiana. Not too long 
ago, I had the opportunity with FCC Chair--and one of the 
members of the committee--Carr to visit Beck's Hybrids and saw 
something that was really quite amazing.
    And so, I guess, Mr. Aiken, and maybe Mr. May, they have 
what they call FARMserver, where they have created their own 
server and service to help with precision ag. And it is 
simplified, but it allows their clients, not just their own 
customers, but others who are participating in FARMserve, to 
generate reports such as yield by soil type, yield by hybrid, 
yield by prescription. It is seed selection streamlined, field-
focused recordkeeping, full support, taking information from a 
farm office out into the field very precisely, but, then, 
aggregating all of this data. And they have this massive server 
system data storage up in northern Hamilton County. I was not 
aware they were doing something of this level of 
sophistication, although they are an incredibly tech-savvy 
company, and always have been.
    We talked about data security, and that is not what I am 
going to go into. But their customers and those who they are 
working with, I asked about whether or not 5G, which is now 
being implemented in Indianapolis and some of the surrounding 
areas--you mentioned 4G. That is what, Mr. May, made me think 
about 5G. This type of service could have, I think, a dramatic 
impact on the ag industry. They used a WISP called On-Ramp.
    Can you all talk with us? Is this happening anywhere else 
in the country or are they truly unique in the country? I am 
just curious, Reynolds Farm Equipment, a great John Deere 
dealer, is right down the road from them. Can you all talk 
about this a little bit, Mr. Aiken maybe, and you may or may 
not know about this, Mr. May, in 5G. Yes?
    Mr. Aiken. Sure. So, thank you, Congresswoman, and I really 
appreciate you going out to visit our member, On-Ramp Indiana, 
and see the work that they are doing as a really small company, 
but bringing big connectivity and enabling the kind of 
innovations that you just mentioned in your statement.
    I think this is indicative of what our members are doing 
across the country. A lot of our members are actually farmers, 
in addition to being broadband providers. So, they understand 
what farms need in order to be able to be successful, both in 
the broadband world and in the farming world.
    But, as far as 5G is concerned, I think we have to 
remember, when we talk about 5G, that 5G is not only mobile. 5G 
is also fixed wireless.
     Mrs. Brooks. Right.
    Mr. Aiken. And a lot of the same technical innovations that 
we see going into the mobile space also will be in the fixed 
space. So, our members, if we have adequate access to spectrum, 
can provide these gigabit or multi-gigabit speeds to farms who 
desperately need the connectivity for big data.
    Mrs. Brooks. Mr. May, anything you would like to talk about 
5G?
    Mr. May. Yes. Yes, absolutely. First of all, 5G would bring 
additional capability in streaming larger sets of data. But, 
today, we have a similar system. It is the John Deere 
Operations Center, where a John Deere farmer today is streaming 
on a real-time basis from the field directly to our cloud-based 
ecosystem all of their agronomic data that, then, they can 
share with any of their trusted advisors in order to make 
better decisions and stream it directly back to the machine in 
the field. So, as we advance the internet connectivity, that is 
only going unlock more value within the field.
    Mrs. Brooks. Are there many companies like John Deere and 
Beck's doing this across the country or is it really just the 
largest? And the other thing I want to mention is, so many of 
these companies are also near small towns. We often think of 
urban and rural, but small towns like Pinetops and others. Do 
we think we are going to get 5G to small towns, to Pinetops, 
North Carolina? I mean, what are we going to do? Because I 
think we are going to be jumping to 5G very fast.
     Mr. May. Yes, our system is a global system that extends 
across the globe that uses multiple different internet 
capabilities. 5G, frankly, is a luxury from a data transmission 
standpoint, but we are leveraging today 3G and 4G as well to do 
the same thing.
    Mrs. Brooks. Thank you. Thank you all so much for your 
testimony. I really appreciate all your work.
    I yield back.
    Mrs. Blackburn. Yields back.
    Mr. Bilirakis, you are recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much.
    I thank the panel for their testimony.
    One of the most important topics of discussion as we 
continue to build new connections and upgrade systems is 
resiliency. We saw what happened, of course, in Florida, Texas, 
and Puerto Rico. Now we are hurricane season, 2018 hurricane 
season. Similarly, other parts of the Nation face their own 
natural disasters, not just hurricanes. They face the threats 
that can impact connectivity and slow emergency communications.
    Mr. Forde, as Midco continues to expand to unserved 
markets, as well as upgrade existing systems, what precautions 
are being taken to help ensure that these systems are resilient 
to natural disasters, which for your area would be tornado 
threats, of course?
    Mr. Forde. Yes, the first thing is, obviously, we build a 
lot of redundancy into our system. Multiple fiber rings of 
sizes large and small allow that technology to go back around 
the ring. So, if we do have a fiber cut or an instance, that 
instantly reroutes, and is the first step in keeping up for 
lost service.
    Additionally, we have had some disasters in North Dakota 
and tornadoes and flooding. We have responded with providing 
free Wi-Fi and things for those communities on an instant 
basis. We have some trailers and things that we do. They are 
our friends. They are our customers. We do the best we can to 
make sure their communications are always working and up and 
running as fast as possible. If, for some reason, the main 
lines aren't working, we provide alternate forms of technology 
to get them up and running right away.
    Mr. Bilirakis. Thank you.
    Continuing on the top of natural disasters, Mr. Stroup, in 
your written testimony you stated that satellite technology can 
deploy temporary-fix installations and very small aperture 
terminal antennas in the aftermath of a disaster to help 
communities get reconnected. The question is, how long does it 
take to deploy these systems to an impacted area? And what 
actions need to be taken by consumers in order to use these 
temporary systems if they do not have a preexisting 
relationship with that satellite provider?
    Mr. Stroup. The systems can be deployed in a matter of 
hours, depending upon where the equipment is located. I think 
what happened in Puerto Rico is a good example, where carriers 
have come forward and noted that satellite needs to be 
considered an important part of the infrastructure for the 
rebuilding process because of the speed and capability of the 
industry. For consumers, very often it is a matter of going to 
a point where there is a satellite connection. A good example 
is in Puerto Rico where people lined up at a grocery store to 
be able to use satellite technology. So, it is something that 
very often is used in conjunction with cellular systems. So, 
they are providing the backhaul where the cellular system has 
gone down. With other technologies, point-to-point 
technologies, it is not necessarily as applicable in terms of 
providing the point-to-point technology, but more being able to 
provide the backhaul capability.
    Mr. Bilirakis. OK. Very good. I appreciate it very much.
    And I yield back, Madam Chair. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Cramer, you are recognized.
    Mr. Cramer. Thank you, Madam Chair.
    And thanks to all of you. My goodness, I am sitting here. 
As you know, I have sat here the whole time, and I have loved 
every minute of it because I see solutions. I have to agree 
with Ms. Eshoo. She said, you look at the six of you and you 
find the solution to the problem.
    I was thinking about the Precision Agriculture Connectivity 
Act, and what would that task force that the FCC will set up, 
should we pass this bill, look like. And I think it looks a lot 
like this, quite honestly.
    We do have competing technologies collaborating to create a 
ubiquitous network that is not reliant on any one of you. It is 
reliant on all of you and several others. That has, I think, 
been both the opportunity and the challenge, that we do have 
competing technologies. We didn't have that with the Interstate 
Highway System. We need a ubiquitous transportation system to 
move products to market and people from coast to coast. And so, 
we have this very public highway system. When it was time to 
bring electricity to the farm, the REA did it beautifully, but 
there weren't competing technologies. Today, of course, there 
are more community-based power sources, things like that, but 
not at the time.
    But you all are in something where there is a lot of 
competition, and you all are in something that needs the 
product. How it gets there is not as relevant as that it gets 
there, right? So, I think we have the makings of a great 
collaboration among competitors.
    We hear a lot now today, of course, about satellite. We 
hear a lot about cable and fiber and fixed wireless and 
community-based, all of those things. And then, we haven't 
talked a lot about mobile, but some, and not a lot about 
nomadic, but, of course, some. All of that has got to work 
together to get it there.
    But I want to ask you, Ms. Word, as I hone in a little bit 
on the tremendous opportunity that I see in telemedicine in 
rural America. With 36 hospitals in North Dakota, and still a 
lot of space between them, the bill we were able to do a couple 
of years ago, it allowed Universal Service funds to be used, 
for example, to connect nursing facilities, which I think was a 
good step in the right direction.
    One of the things, though, we always hear about--and God 
bless Mr. Welch for raising the fact that some of this does 
cost money, right, particularly in unserved and underserved and 
maybe profit centers it requires some money. And we provided 
some and more, and probably need to do more.
    But, at the same time, we often don't talk about the 
savings or the opportunities. For example--and this is what I 
want to get to you--in your testimony you talked about that 
telemedicine, the benefit of it, the value of it. Has there 
ever been a cost-benefit analysis of people being able to stay 
at home longer or maybe be in a community-based health center 
longer because they have ubiquitous access to the experts 
somewhere else? Because we always talk about the cost, not 
necessarily about the savings.
    Ms. Word. I don't know about an official study. I am sure 
they have been done. I know our facility, and also Grande Ronde 
Hospital, the one that is 65 miles away, has looked at the 
number of miles saved. That translates to gallons of gas, the 
hotel rooms, the time off of work that, whether it is the 
patient or family member, don't have to take.
    Most of the savings I think is for the hospital and 
probably our primary care providers. They are able to assist 
these specialists. Often, they will do their visits side-by-
side with the primary care provider in the room.
    Mr. Cramer. Sure. What I wonder, because you talked about 
reimbursement issues, right----
    Ms. Word. Yes.
    Mr. Cramer [continuing]. And what is not allowable. It 
would seem to me that we ought to take a real serious look at 
how, whether it is private insurance or Medicare in most cases, 
is reimbursing, how they might save by reimbursing something 
that they might not think is healthcare, if that makes sense.
    Ms. Word. Absolutely. Reimbursement is a huge issue, both 
for the originating site and the distant site. I will tell, we 
don't really even consider for us, being the originating site, 
reimbursement. We often don't even bill. Whoever we are working 
with on the other end, they pay us $25 per patient, a max of 
$100 a day. We could do six, eight, twelve patients; we will 
get $100. We are about the patient and what makes it better for 
them. Healthwise, they often feel better if they are at home 
and they are with their loved ones, their spouse, their 
children, more comfortable with being at home.
    Mr. Cramer. Excellent.
    And I am just going to wrap up my last 10 seconds here with 
the aggies. Thank you, John Deere. We haven't talked about 
unmanned aerial vehicles and the opportunity for imagery there, 
and the ability to use--the beautiful thing about rural 
America, besides the fact that they grow enough food for the 
world, is that they do have a lot of available spectrum. It 
might be owned by somebody or licensed by somebody else or just 
not available, but it is available. If we can find ways to 
enhance the imagery, there is no reason we shouldn't be able to 
change the world with precision agriculture, and I know that 
you all are about doing that.
    And I have overstepped my time, Madam Chair. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Long, you are recognized.
    Mr. Long. Thank you, Madam Chairwoman.
    As a point of personal privilege, just for the record, I 
would like to state that, as everyone knows, Arthur Bryant's 
Barbeque in Kansas City would make Memphis and Texas barbeque 
want to run and hide.
    [Laughter.]
    So, I just want to get that out.
    Mr. Aiken and Mr. Forde, in this Congress I have introduced 
H.R. 4817, the PEERING Act. The focus is on improving broadband 
infrastructure in rural America. The bill would set up a 
matching grant program at NTIA to make peering centers more 
resilient where ones already exist and create new ones where 
they are needed, mainly across the Midwest, where Arthur 
Bryant's Barbeque is.
    Do you think this bill would help combat the strain on 
rural providers having to deliver consistently increasing 
amounts of internet traffic, including high bandwidth video 
transmissions? Mr. Aiken?
    Mr. Aiken. Sure. Thank you for the question, Congressman.
    And I have to say, also, for the record, that I will be 
making a road trip through Tennessee, Missouri, and Kentucky 
this summer. So, I will have to sample the barbeque.
    Mr. Long. We will look for your report.
    [Laughter.]
    Mr. Aiken. I will submit that for the record.
    [Laughter.]
    But I appreciate the question. The cost of backhaul is a 
very significant cost for a lot of rural providers in terms of 
getting to that point where they can peer with other providers. 
So, I really appreciate your efforts to try to do things to 
reduce that.
    Mr. Long. What else can be done in more rural areas? I have 
several rural areas in my 10 and a fraction counties. A lot of 
it is rural America, and I don't think that the kids trying to 
do their homework should be affected differently than the kids 
in the city. So, what else can we do in more rural areas to 
keep service high quality and the speed fast?
    Mr. Aiken. From our perspective, Congressman, the answer is 
spectrum, and spectrum done in a way that makes sense for small 
companies. We have a ton of small providers out there in rural 
America providing broadband now, but the spectrum they are 
using is crowded. Like I mentioned previously, we have folks 
who have customers within range, potential customers within 
range of radios right now, but insufficient spectrum to do it.
    Mr. Long. OK. Thank you.
    And, Mr. Forde, do you think this bill that I have 
introduced would help combat the strain on rural providers 
having to deliver consistently increasing amounts of internet 
traffic, including high bandwidth video transmissions?
    Mr. Forde. Obviously, we are delivering gigabit speeds 
across all of our footprint from Bowman to Battineau and 
Williston to Wahpeton in North Dakota.
    So, I wanted to make sure I said ``Hi'' to my Congressman 
Cramer up there as well. Excuse me, Congressman Long.
    But, yes, we certainly really believe that increasing those 
speeds would be great. One of the ways that we can really do 
that is, again, as Mr. Aiken said, more spectrum. Again, we 
really like the 2.5 gigahertz band of spectrum to put out that 
speed because it allows for interference protections and also 
to get through some of those tough, hard-to-reach areas through 
trees and woods, and things like that. So, yes, we constantly 
have efforts to increase speeds all across our footprint.
    Mr. Long. And what else can be done in more rural areas to 
keep service high quality and speeds fast?
    Mr. Forde. I think that the continued deregulation to allow 
us to keep focused on investing in our networks is very 
helpful. Allowing us not to have teams in rooms and even a 
floor full of people working on some of those regulations 
allows us to do what we do, and we do real broadband and 
continue to invest for our customers.
    Mr. Long. Thank you.
    And I didn't realize Senator Cramer had joined us, but 
thank you for pointing that out.
    I appreciate everything this committee does, and has been 
doing, in promoting broadband deployment.
    I would like to submit for the record a letter from the 
Missouri Electric Cooperatives about what they have been doing 
in Missouri.
    [The information appears at the conclusion of the hearing.]
    Mr. Long. And last, but not least, I would love to get 
bipartisan support for my bill, H.R. 4817, the PEERING Act, and 
hope to work with my colleagues on the other side of the aisle 
on this.
    Madam Chairwoman, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Costello, you are recognized, 5 minutes.
    Mr. Costello. Mr. Forde, as you state in your testimony, 
you acknowledge that government assistance is sometimes 
necessary to reach areas of the country where there is no 
business case for private investment. But, to efficiently 
leverage USF funds to the areas that need it most, we need the 
federal government to collect and disseminate data that more 
accurately reflects the digital divide. This is why 
Representative Loebsack and I introduced the Rural Wireless 
Access Act, signed into law with the help of this committee in 
the spring. This bill directs the FCC to establish consistent 
data collection practices for mobile service coverage. Can you 
highlight some of the problems that arise from overbuilding 
with Federal dollars and how this committee can steer agencies 
to more efficiently focus efforts on the truly underserved 
areas of the country?
    Mr. Forde. Yes. I think Midco, as a company that is already 
providing robust service, and some of the communities already 
had multiple providers, and, of course, we had been overbuilt 
in many of those communities with those Federal dollars. What 
we have seen is there are still areas just outside those fairly 
large communities--places like Mitchell, South Dakota, 
population of approximately 15,000, had multiple providers 
there providing a high level of speed. But, yet, there are 
still people just not far from town that are unserved or 
underserved in that area. So, to the extent that we can focus 
on those first, that will be a much better use of those federal 
dollars, and let's make sure that we do that in a technology-
neutral manner. Whether it is a fiber connection, whether it is 
the high-frequency cable, or the fixed wireless technology to 
reach those, let's use the best tool that we have in the 
toolbox.
    Mr. Costello. Mr. Stroup, I recently introduced the WI-FI 
STUDy Act to highlight the economic benefits that result from 
unlicensed spectrum use in assisting internet traffic 
management, and how that will help us realize the benefits of 
an interconnected world with more efficient transmission of 
data. Can you talk about some of the roles that unlicensed 
spectrum can play in closing the digital divide in rural 
America? Second, can you also specifically touch on how 
unlicensed spectrum may play in the satellite industry?
    Mr. Stroup. Yes. Certainly, at least one of our members is 
working to show the value of community Wi-Fi connected by 
satellite systems. Wi-Fi, as you know, utilizes unlicensed 
spectrum. I think it is a combination of those technologies 
that provides an opportunity to be able to provide low-cost 
services in many of the areas that do not otherwise have access 
to service, and that is a great combination of unlicensed 
spectrum and satellite backhaul capability.
    Mr. Costello. Mr. Aiken, do you have anything to add on the 
issue of unlicensed spectrum and the role it can play in 
closing the digital divide in rural America?
    Mr. Aiken. Absolutely. Thank you, Congressman.
    Unlicensed spectrum is absolutely critical in closing the 
digital divide. The large majority of our members who are small 
businesses who have been, for lack of a better word, locked out 
of the license spectrum play for too long, have utilized 
unlicensed spectrum in predominantly the 2.4 gigahertz and the 
5 gigahertz bands to provide service. So, as I said in my 
testimony, additional unlicensed spectrum would be an 
incredible boon for rural broadband.
    Mr. Costello. Very good. Thank you. I yield back.
    Mrs. Blackburn. Mr. Flores, you are recognized.
    Mr. Flores. Thank you, Madam Chairman, for hosting this 
great panel.
    And, Panel, I appreciate your testimony. I echo what Mr. 
Cramer said. It has been a fascinating discussion so far.
    In terms of what Congress has done in this area to look at 
rural broadband, we have helped auction off spectrum for 5G 
deployment; we have streamlined the permitting processes; we 
are hoping to change the regulations, so we can put more 
broadband satellites in the sky; we are encouraging 
technological innovation, and we are simply funding government 
agencies and programs that drive broadband development. With 
that said, it is reassuring to see you all get together, as Mr. 
Cramer said, and offer us what we think are the solutions, what 
could possibly be the solutions for the future.
    My district, 90 percent of the population lives in about 5 
percent of the footprint. So, in terms of population, it is 
mostly urban and suburban. On the other hand, 10 percent of the 
population lives in 95 percent of the land area and it is 
rural. And so, broadband rollout is incredibly important to me 
in terms of representing that 10 percent of the population that 
has more limited access to broadband.
    Congress last year was working hard to deal with this when 
it took my Radio Broadband Consumer Protection Act, which 
ensured that broadcasters were protected in the repack to 
follow the first of its kind broadcaster incentive auction. In 
2012, the broadcast incentive auction, which raised $19 
billion, was part of Congress' effort to grow broadband 
development and access, but that legislation had an unforeseen 
impact, because at the time nobody realized that the radio 
broadcasters had not been protected. So, our legislation took 
care of that part of the repack of the spectrum, so that the 
wireless rollout for 5G and advanced 4G could continue on time. 
And that became part of the RAY BAUM'S Act, and that has become 
law now.
    Moving on to the next section, which has to do with 
regulations, last January I introduced H. Res. 701. That called 
for environmental and historic reviews conducted by the FCC or 
any entity regulated by the FCC to be limited to the area of 
impact. This resolution was part of this committee's effort to 
build out broadband. It promotes a more practical and efficient 
model for the modern deployment of broadband while respecting 
the oversight of historical and environmental impacts.
    I would like to start with that last issue first regarding 
regulatory reform. So, I would like to go through the entire 
panel. And this is the question: how important is it for 
broadband buildout that Federal requirements be proportional to 
the actual area being disturbed?
    Mr. Stroup, we will start with you. It is probably not as 
important for you as it is for the other folks on the panel.
    Mr. Stroup. Yes, certainly because the satellite industry's 
issues are somewhat different than the terrestrial systems.
    Mr. Flores. Right.
    Mr. Stroup. Our infrastructure is in the sky.
    Mr. Flores. Right.
    Mr. Stroup. So, for us, it is more a matter of ensuring 
that there is access to spectrum and that any technology that 
is adopted be technology-neutral. In terms of deployment of the 
infrastructure, certainly we utilize fiber systems, but that is 
not typically an impediment to the deployment of our systems.
    Mr. Flores. That is what I thought. How about in terms of 
your ground-based stations? Have you had any regulatory impacts 
in this regard?
    Mr. Stroup. So, we do have issues, but it is not a major 
impediment to the industry.
    Mr. Flores. OK. That is good to hear.
    Mr. Forde?
    Mr. Forde. Certainly we have, as I may have mentioned 
earlier, we have had some issues with the Army Corps and the 
permitting process in those environmental issues in reaching 
those tough areas. We also do feel that the fixed wireless tool 
can be very helpful in reaching some of those. So, those rules 
are also allowing us to do that without too much burden on our 
company. But, certainly, those regulations do slow us down in 
doing rural broadband.
    Mr. Flores. OK. Mr. Aiken?
    Mr. Aiken. Yes, I would agree with what Mr. Forde said. It 
is tough for a mom-and-pop business to have to pay $5,000 for a 
permit in order to hang a small radio on an existing tower. So, 
we appreciate the help that Congress and the FCC have been 
affording us on permit streamlining.
    Mr. Flores. Mr. May?
    Mr. May. Yes, we would agree. I think that speeding up the 
process would certainly help reach the areas that don't have 
service, and I think it is broader than we think. And we do 
those, but we are doing it in a sustainable way.
    Mr. Flores. OK. I would like to go to the next question. I 
will ask you all to answer supplementally.
    Ms. Coker Craig, you may have a response to that. Ms. Word, 
I don't know if it impacts you or not.
    Mr. Stroup, I suspect the satellite industry faces its own 
very unique regulatory impediments. Can you address the 
hindrances for deployment that the satellite industry faces?
    Mr. Stroup. Can you repeat that?
    Mr. Flores. Yes. Can you address the hindrances for 
deployment that the satellite industry faces?
    Mr. Stroup. Issues for deployment that the industry----
    Mr. Flores. Yes, hindrances.
    Mr. Stroup. Again, going back to the point that I made 
before, in terms of deployment, the biggest issue that we have 
is access to spectrum. We have a number of companies that have 
announced plans for deployment of their next generation 
technology, both GEO systems and LEO systems. So, the 
processing at the Commission is certainly an issue. We are 
going through a process with expediting small satellite 
licensing. But I think that the key points for us, again, are 
technology neutrality and access to spectrum.
    Mr. Flores. OK. Thank you, Madam Chairman. I yield back the 
balance of my time.
    Mrs. Blackburn. The gentleman yields back.
    Seeing that there are no further members wishing to ask 
questions, I thank all the witnesses for being here today. We 
appreciate your participation so much.
    Before we conclude, I ask unanimous consent to enter the 
following documents into the record:
    And I will start with you, Mr. Doyle. You have some to 
enter?
    Mr. Doyle. Yes. Thanks, Madam Chair.
    I know that it has been pointed out, the money that 
Congress has given to the Department of Agriculture's Rural 
Utility Service, and the FCC on the Rural Health Care Program. 
I just want to point out that the problem in rural America is 
way bigger than those efforts.
    I want to submit for the record an FCC study here that 
shows it will take $40 billion to build out 98 percent of the 
country. So, if we give the Agriculture Department the same 
amount we gave them this year, $600 million, it would take 66 
years before we got to 98 percent of the country. So, that is 
just a drop in the bucket, and we need to do a lot better.
    So, I would like to submit this study for the record.
    Mrs. Blackburn. Without objection, so ordered.
    [The information appears at the conclusion of the record.]
    Mrs. Blackburn. Unanimous consent to issue this following 
list of documents: a letter from ITTA; Wireless Industry 
Association; American Hospital Association; USTelecom; NTCA; 
the Rural Broadband Association; ACT, the App Association; CCA; 
Advanced Communications Law and Policy Institute; CTIA; a blog 
post from NCTA; a letter from Rural Broadband Caucus members to 
House appropriators; Chairman Walden's slides; a letter from 
several associations supporting the AIRWAVES Act, from Mr. 
Lance; a letter to Mr. Olson from NTCA, submitted by Mr. Olson; 
a letter to Mr. Olson from the Wireless Industry Association, 
submitted by Mr. Olson; a letter to Mr. Long from the 
Association of Missouri Electric Cooperatives, from Mr. Long; 
and a letter to Mr. Loebsack from the Chariton Valley Electric 
Cooperative, from Mr. Loebsack.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Pursuant to committee rules, I will remind 
the members that they have 10 business days to submit 
additional questions.
    And to you, our panel, if you will respond to those in 
writing within 10 business days of receipt?
    Mrs. Blackburn. Seeing that there is no further business to 
come before the committee this morning, the subcommittee is 
adjourned.
    [Whereupon, at 12:32 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
